<html>
<title> - OVERSIGHT HEARING ON EXPLORING INNOVATIVE SOLUTIONS TO REDUCE THE DEPARTMENT OF THE INTERIOR'S MAINTENANCE BACKLOG</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


    EXPLORING INNOVATIVE SOLUTIONS TO REDUCE THE DEPARTMENT OF THE 
                    INTERIOR'S MAINTENANCE BACKLOG

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, March 6, 2018

                               __________

                           Serial No. 115-39

                               __________

       Printed for the use of the Committee on Natural Resources
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
                     
                     
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-851 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT
John R. Curtis, UT

                      Cody Stewart, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 
                                ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, March 6, 2018...........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
        Prepared statement of....................................     3

Statement of Witnesses:
    Guertin, Steve, Deputy Director, U.S. Fish and Wildlife 
      Service, U.S. Department of the Interior, Washington, DC...    30
        Prepared statement of Mr. Guertin and Mr. Smith, U.S. 
          Department of the Interior.............................    71
    Iobst, Steve, National Park Conservation Association, 
      National Park Service, Retired, Former Chief of Facility 
      Management for Yellowstone National Park, Driggs, Idaho....    31
        Prepared statement of....................................    33
    Puskar, Dan, Executive Director, Public Lands Alliance, 
      Silver Spring, Maryland....................................    38
        Prepared statement of....................................    39
    Rano, Jason, Vice President, Government Relations, National 
      Park Foundation, Washington, DC............................    43
        Prepared statement of....................................    44
    Smith, P. Daniel, Deputy Director, National Park Service, 
      U.S. Department of the Interior, Washington, DC............     5
        Prepared statement of Mr. Smith and Mr. Guertin, U.S. 
          Department of the Interior.............................    71
        Questions submitted for the record.......................     6

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    73
    U.S. Department of the Interior, prepared statement of Mr. 
      Guertin and Mr. Smith......................................    71
                                     


 
   OVERSIGHT HEARING ON EXPLORING INNOVATIVE SOLUTIONS TO REDUCE THE 
            DEPARTMENT OF THE INTERIOR'S MAINTENANCE BACKLOG

                              ----------                              


                         Tuesday, March 6, 2018

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:03 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Lamborn, McClintock, 
Thompson, LaMalfa, Westerman, Hice, Bergman, Curtis; Grijalva, 
Bordallo, Costa, Sablan, Beyer, Torres, Hanabusa, Barragan, 
Soto, and McEachin.
    The Chairman. All right. We welcome all of you here today 
for this particular Full Committee hearing. It is a significant 
issue, and that is why we are doing it at the Committee level.
    We are here today to hear testimony on exploring innovative 
solutions to reduce the Department of the Interior's 
maintenance backlog--that is the official title.
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chairman, the Ranking Minority 
Member, and the Vice Chair. This will allow us time to actually 
get to our witnesses sooner, I hope.
    Therefore, I am going to ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
record, if they are submitted to the Subcommittee on Federal 
Lands Clerk by 5:00 p.m. today.
    Without objection, that is so ordered.
    Let me recognize myself for a very brief statement. I will 
put a longer opening in later on. It is a very brief statement.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. We have problems. This Committee is hearing 
testimony because the Department of the Interior manages over 
500 million acres of surface land. That is a huge amount. That 
is one-fifth of the land mass of the United States. We have 
Parks, we have Forest Service, we have Fish and Wildlife, we 
have BOR, all of whom have some kind of backlog in the 
maintenance that we have.
    About a decade ago, we tried to just throw money at the 
situation, a big pile of money that went to the Interior 
Department, most of which was mismanaged, but it did not solve 
the problem. There has to be some kind of innovative and 
creative solution to actually solve the problem.
    We are not going to be talking necessarily about the 
solutions today; that is going to be for next week. Today, we 
are going to explore the depth of the problem and find out 
where we are going, so we can then look at solutions. These are 
important and these are specific.
    Because of that, let me reserve any other comments for 
writing or for later.

    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    The Committee meets this morning to hear testimony on the 
Department of the Interior's maintenance backlog and innovative ways to 
finance and implement needed improvements with greater efficiency and 
effectiveness.
    In total, the Department of the Interior manages more than 500 
million acres of surface land, or about one-fifth of the land in the 
United States. The Department's three major land management agencies, 
the National Park Service, Fish and Wildlife Service, and Bureau of 
Land Management, maintain tens of thousands of diverse assets, 
including roads, bridges, buildings, and water management structures.
    As the Federal estate expands, existing infrastructure ages, and 
visitation increases, these agencies are increasingly unable to fulfill 
basic updates and repairs to keep these assets accessible and in safe, 
functioning order for the public. As a result, the Department's 
deferred maintenance backlog currently exceeds $16 billion.
    The National Park Service, which manages 417 diverse units covering 
more than 84 million acres, has an estimated backlog of $11.6 billion. 
Since 1999, 8,000 buildings and 2,000 miles of roads have been added to 
National Park Service infrastructure portfolio. The number of units 
that the National Park Service manages has grown from 390 in 2006 to 
417 today.
    The Fish and Wildlife Service, which manages more than 560 National 
Wildlife Refuges and thousands of small wetlands and other special 
management areas, has an estimated deferred maintenance backlog of $1.4 
billion.
    The Bureau of Land Management, which manages more than 245 million 
surface acres, has an estimated deferred maintenance backlog of $810 
million, which represents a 65 percent increase over the past decade.
    These figures represent serious deficiencies in the Department's 
ability to prioritize and manage our sprawling Federal estate. There is 
no question that decades of misplaced priorities in Congress and the 
executive have placed our Federal land management agencies in this 
position. Today, our objective is to better understand how we got here 
from both funding and management standpoints, and to chart a pragmatic 
path forward for the Department to carry out its management 
responsibilities with greater efficiency and effectiveness.
    The President's Department of the Interior budget proposal for 
Fiscal Year 2019 put forward innovative ideas toward achieving this 
end, including the establishment of a Public Lands Infrastructure Fund. 
The proposal envisions using targeted revenue increases from Federal 
energy leases to provide a more stable funding source dedicated to the 
maintenance backlog. The Fund will be capped at $18 billion in total 
possible expenditures, and is designed to promote significant 
improvements to the country's most noticeable and frequently visited 
facilities.
    I want to thank Secretary Zinke and the Department's leadership for 
their commitment to expanding public access to public lands and 
improving management of existing assets for the benefit of all 
Americans. Prioritizing our ballooning maintenance backlog is central 
to this effort. It is my hope that we can develop solutions on a 
bipartisan basis and move them expeditiously through Congress.
    I look forward to today's discussion and I now yield to the Ranking 
Member for his opening statement.

                                 ______
                                 

    The Chairman. I will yield to the Ranking Minority Member 
if he has some kind of statement to make.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. I, too, have a 
lengthy statement that I will submit for the record so that we 
can get testimony from the witnesses.
    We have been grappling with this issue since I have been on 
this Committee, the issue of deferred maintenance on our parks 
and public lands. Over the last decade and a half, we have 
talked and put forward spending proposals and programs to 
leverage partnerships, private donations, and volunteers.
    But the amount of deferred maintenance continues to grow or 
flatline, at best. Two years ago, the National Park Service 
celebrated its Centennial Anniversary, and all eyes were 
focused on our parks and public lands. We had a unique 
opportunity to make a stronger investment in their future. 
Unfortunately, I don't believe we seized that moment to right 
the ship and begin a pragmatic process.
    I would like to acknowledge Chairman Bishop's hard work to 
get his vision of the National Park Service Centennial enacted 
into law. That bill creates new revenue streams and establishes 
new programs to leverage private investments to support our 
national parks. These are important tools that we should 
continue to support, although they are not enough to buy down 
deferred maintenance across the entire system. The Trump 
administration's proposed Public Lands Infrastructure Fund is 
not the answer, either.
    While I am glad to see an interest in finding money to 
support our public lands, the proposal in the budget is 
backwards. Our most treasured places now depend on the fortune 
of the energy industry for their success and their failure: 
that is putting things backwards. We should not have to expand 
drilling in the Arctic, off the coast of Florida, or anywhere 
else to serve our parks. It is a false choice that the American 
public does not support.
    And the list goes on. We have to address, and my colleagues 
in the Majority have to address, the backlog maintenance 
amounts. We don't have to risk destroying our parks in order to 
save them.
    With that, Mr. Chairman, I will submit the rest for the 
record. Thank you and I yield back.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Thank you, Mr. Chairman.
    Congress has been grappling with strategies to address the issue of 
deferred maintenance on our parks and public lands the entire time I've 
served on this Committee. Over the last decade and a half, we have 
talked and talked, put forward spending proposals, and even enacted new 
programs to leverage partnerships, private donations and volunteers, 
but the amount of deferred maintenance continues to grow, or flatline 
at best.
    Just 2 years ago, the National Park Service celebrated its 
Centennial Anniversary. All eyes were focused on our parks and public 
lands, and we had a unique opportunity to make a strong investment in 
their future. Unfortunately, we were not able to seize that moment and 
right the ship.
    I would like to acknowledge Chairman Bishop's hard work to get his 
version of the National Park Service Centennial enacted into law. That 
bill created some new revenue streams and established new programs 
designed to leverage private investments to support our national parks. 
These are important tools that we should continue support, but they are 
not enough to buy down deferred maintenance across the entire system.
    The Trump administration's proposed Public Lands Infrastructure 
Fund is not the answer either.
    While I am glad to see an interest in finding money to support our 
public lands, the proposal in the budget is backwards. Our most 
treasured places should not have to depend on the fortune of the energy 
industry for their success and failure. We don't have to expand 
drilling in the Arctic, off the coast of Florida, or anywhere else to 
save our parks. That is a false choice that the American public does 
not support.
    There are 40 coastal units of the National Park System already at 
risk of flooding thanks to the fossil fuels we have already burned; my 
Republican colleagues now tell us that the only way to address the 
maintenance backlog is to burn more fossil fuels, faster, and to 
dramatically increase the risk of damage from an oil spill to these NPS 
units. In other words, the Republican plan to address backlogged 
maintenance amounts to: we have to risk destroying our parks to save 
them.
    A need for consistent funding has been a dominant theme of all our 
conversations on this subject over the years; deferred maintenance will 
continue to grow if we do not head it off with consistent and dedicated 
funding. Any serious attempt to reduce deferred maintenance must be 
combined with a solid investment strategy from Congress. Our parks and 
public lands belong to all Americans, and it is our responsibility as 
their representatives to come up with a plan to ensure another 100 
years of success.
    Over half of the more than $11 billion of deferred maintenance at 
national parks is for roads, bridges, and transportation. This is 
American infrastructure that deserves a real investment strategy. 
Unfortunately, Republicans are more interested in undermining bedrock 
environmental laws than putting forward a legitimate infrastructure 
proposal.
    A real infrastructure plan would identify investment opportunities, 
not slash agency budgets and push the burden of deferred maintenance 
onto the public by dramatically increasing entrance fees at iconic 
national parks. We can't expect shrinking or flatlined budgets to 
sustain America's Best Idea.

    With that, Mr. Chairman, I yield back the balance of my time.

                                 ______
                                 

    The Chairman. Thank you. And I appreciate your comments. I 
guess that is why you are going to withdraw your LWCF bill, 
aren't you?
    OK. Let me introduce the guests that we have, the witnesses 
for today.
    First of all, Mr. P. Daniel Smith, who is the Deputy 
Director of the National Park Service with the Department of 
the Interior.
    Thank you for joining us here today.
    Mr. Steve Guertin, who is the Deputy Director of the U.S. 
Fish and Wildlife Service, once again, from DOI.
    Thank you for coming up to the Hill.
    Mr. Steve Iobst----
    Mr. Iobst. Iobst.
    The Chairman. Iobst, thanks, who is with the National Park 
Conservation Association, retired from the Park Service.
    Thank you for being here, as well.
    Mr. Dan Puskar.
    Mr. Puskar. Puskar.
    The Chairman. Puskar. You guys are going to have to put 
some emphasis lines on here.
    [Laughter.]
    The Chairman. OK. Mr. Smith--you are all Smith from here on 
out.
    [Laughter.]
    The Chairman. He is the Executive Director for the Public 
Lands Alliance. Thank you.
    And Mr. Jason Rano. I got one right? One out of four isn't 
bad. The Vice President, Government Relations, for the National 
Park Foundation here in Washington, DC.
    We thank you all. I am going to remind the witnesses that 
your written testimony is part of the record. The oral 
testimony is limited to 5 minutes. Those microphones have to be 
turned on themselves. You have a timer in front of you--green 
is OK, yellow means you better talk real fast because I will 
cut you off at 5 minutes. Not to be rude, but that is the only 
perk of this office I have.
    [Laughter.]
    The Chairman. So, I will gavel you down when 5 minutes is 
done.
    With that, the Chair is recognizing Mr. Smith first for 
your 5 minutes. And thank you very much for being here again.

 STATEMENT OF P. DANIEL SMITH, DEPUTY DIRECTOR, NATIONAL PARK 
    SERVICE, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, DC

    Mr. Smith. Thank you, Mr. Chairman, Ranking Member 
Grijalva, and members of the Committee. Thank you for the 
opportunity to present the Department of the Interior's views 
on potential solutions to reducing the deferred maintenance 
backlog. I would like to submit our full statement for the 
record, and summarize the National Park Service's views.
    I am P. Daniel Smith, Deputy Director of the National Park 
Service. I have served with the National Park Service in a 
variety of capacities, most recently as superintendent of 
Colonial National Historical Park from 2004 to 2015. Before 
that, I served as Special Assistant to the National Park 
Service Director, and Assistant Director for Legislative and 
Congressional Affairs.
    My colleague, Steve Guertin, Deputy Director of the Fish 
and Wildlife Service, will speak on behalf of his bureau.
    Since Secretary Zinke's confirmation, tackling the deferred 
maintenance backlog has been a top priority. The Department 
manages roughly 500 million acres of land and possesses an 
infrastructure asset portfolio valued at over $300 billion. 
Roads, bridges, trails, water systems, visitor centers, 
bathrooms, campgrounds, and drinking fountains all are part of 
this critical framework. After years of increased visitation 
and use, aging facilities and other vital structures are in 
urgent need of repair.
    The Department has a total of about $16 billion worth of 
deferred maintenance. Of that amount, the National Park Service 
has the largest share: $11.6 billion in 2017. Here are some 
examples:

    Glacier National Park in Montana has more than $154 million 
in maintenance needs, including projects to repair bridges and 
culverts, roads, and employee housing.
    Point Reyes National Seashore in California has roughly $99 
million in deferred maintenance, including projects such as the 
historic platform bridge, built in 1927, $1.6 million is needed 
for this project, alone.
    Colonial Parkway, part of Colonial National Historical 
Park, which I know very well, in Tidewater, Virginia, was 
designed in the 1930s to provide a scenic route between 
historic Jamestown, Yorktown, and Williamsburg. Today, the 
parkway is an important commuter route, carrying between 1.9 
and 2.2 million vehicles and large tour buses each year. The 
total cost to repair the parkway is $270 million.
    Appropriated funds are currently the primary source of 
funding for deferred maintenance. However, we know that we 
cannot rely on appropriated dollars alone to address this 
problem, so we are looking at multiple avenues for making 
additional funds available through other means.
    For example, the Department's Fiscal Year 2019 budget 
proposes to permanently authorize the Federal Lands Recreation 
Enhancement Act, which expires in September of 2019. New 
proposals, including the proposed Public Lands Infrastructure 
Fund outlined in the President's 2019 Budget, would address 
repairs and improvements in national parks, national wildlife 
refuges, and Bureau of Indian Education schools.
    The Administration's proposal would set aside a portion of 
the unallocated Federal energy revenues for infrastructure 
needs. This bold investment would significantly improve the 
Nation's most visible and visited public facilities that 
support a multi-billion-dollar outdoor recreation economy.
    We greatly appreciate the efforts of this Committee and 
your colleagues, who have sought to craft real solutions to our 
maintenance backlog. We look forward to continuing 
collaborative efforts that preserve and maintain our national 
treasures.
    Mr. Chairman, this concludes my statements. I will be 
pleased to answer any questions.

[The prepared statement of Mr. Smith and Mr. Guertin, U.S. 
Department of the Interior appears on page 71.]

                                ------                                


   Questions Submitted for the Record to Mr. P. Daniel Smith, Deputy 
   Director, National Parks Service, U.S. Department of the Interior
                   Questions Submitted by Rep. Bishop
    Question 1. How much has the National Park Service spent on 
deferred maintenance each year for the past 3 fiscal years (combining 
all Federal fund sources)?

    Answer. The NPS spent about $1 billion per year on all NPS 
maintenance including deferred maintenance (DM), cyclic maintenance, 
and day-to-day maintenance activities, in each fiscal year between 2006 
and 2015. The NPS measures progress on reducing the deferred 
maintenance backlog not by dollars spent on projects, but by closed 
work orders. The table below shows the dollar value of DM work 
accomplished through DM work orders that are closed, as recorded in our 
Facility Management Software System and reported in the Department of 
the Interior Annual Performance Plan and Report (APP&R). This report 
can be viewed online at https://www.doi.gov/sites/doi.gov/files/
uploads/doi_appr_-_final.pdf. Below are the totals for the last 3 
fiscal years of retired DM work orders:

    Value of NPS deferred maintenance work orders closed.<SUP>1,2</SUP>

------------------------------------------------------------------------
          2015                     2016                    2017
------------------------------------------------------------------------
        $508,000,000             $854,000,000            $664,000,000
------------------------------------------------------------------------
1 Amounts reflect DM that was retired and removed from the NPS DM
  backlog, but do not reflect the net change in backlog, due to new
  amounts of DM work orders being added.
 
2 DM work orders can exist as a component of any project regardless of
  fund source, so this reflects projects from all sources of Federal
  funds.


                  Questions Submitted by Rep. Gallego
     fully implementing the nps four-tier fee structure instead of 
                         unmanageable fee hikes

    Question 1. The Administration proposed nearly tripling entrance 
fees in a handful of parks during peak season instead of fully 
implementing the existing fee structure the park service has.

    Currently, 80 percent of fees collected at parks stay in the park 
where it is collected and 20 percent goes to a fund for other parks; 55 
percent of this 80 percent of in-park fees collected goes to fund 
deferred maintenance projects. Fees increases should be a part of the 
conversation, but as part of a methodical and thoughtful structure that 
both benefits the parks and retains the accessibility of parks to all 
visitors. It is striking that this structure already exists within the 
park service but has not yet been fully implemented. Before we do 
something drastic, shouldn't we implement the well-thought-out, 
demographically-informed plan we have in place?

    Answer. After carefully considering the public comments provided on 
the 2017 fee proposal, the NPS revised its proposal and developed a 
balanced plan that implements modest increases at the 117 fee-charging 
parks as opposed to larger increases proposed for 17 highly visited 
national parks. As part of this plan, the NPS will also fully implement 
the four-tier existing fee structure by 2020.

    Question 2. Please detail how the four-tier structure is designed 
to work, and what factors it considers.

    Answer. The four-tier structure groups units of the National Park 
System based on legislative designation and park attributes and sets 
fee rates to provide pricing consistency within each particular tier. 
There are four price points within each tier: per person, per vehicle, 
per motorcycle, and per park specific annual pass. The per vehicle rate 
is twice the per person rate and the park specific annual pass is twice 
the per vehicle rate. The motorcycle rate falls between the per person 
and per vehicle rate.

    Question 3. How much revenue would be generated for deferred 
maintenance if all parks participating in the four-tier structure 
charged what is permissible under the existing regime?

    Answer. We estimate that bringing all non-conforming parks into 
alignment with the four-tier structure would generate approximately 
$7.7 million in additional revenue. A little over half (55 percent) of 
that amount would be required to be spent on deferred maintenance.

                 Questions Submitted by Rep. Westerman
    Question 1. Mr. Smith, the NPS FY 2017 report \1\ on deferred 
maintenance lists the Arkansas total deferred maintenance at $37.6 
million. Could you please provide a comprehensive breakdown of this 
total, including a delineation between structural and transportation 
deferred maintenance across all park units?
---------------------------------------------------------------------------
    \1\ https: / /www.nps.gov/subjects/plandesignconstruct/upload/FY17-
NPS-Deferred-Maintenance-by-State-and-Park_508.pdf.

    Answer. Attachment #1 contains two tables showing the asset count 
and deferred maintenance (DM), respectively, by asset category for each 
of the seven national park units in Arkansas as of the end of Fiscal 
Year 2017. The bottom row in each table provides a percentage breakout 
of Arkansas asset counts and DM by asset category. There are notes 
---------------------------------------------------------------------------
below the tables providing further detail on several asset categories.

    Question 2. Additionally, for each individual park unit listed in 
the report, could you please provide the following statistics:

    2a. Visitation numbers for each of the past 5 years

    2b. Overnight stays for each of the past 5 years

    2c. Current entrance fee

    2d. Site net revenue over the past 5 years
    2e.  Total number of concession contracts, historic leasing 
contracts, and any other third-party use contracts at each site

    2f. Total acreage of each site

    2g. Number of structures at each site

    Answer. Visitation numbers, overnight stays, total acreage, and a 
variety of other statistics are available for all NPS units separately 
or grouped by state can be viewed online at: https://irma.nps.gov/
Stats/Reports/National. The information to your specific items are 
found in either the charts below or attachments to this question for 
the record.

    The following charts include the statistics regarding sub-questions 
a-g:

    a. Visitation numbers for each of the past 5 years

----------------------------------------------------------------------------------------------------------------
                                                     2013         2014         2015         2016         2017
----------------------------------------------------------------------------------------------------------------
Arkansas Post National Memorial................       36,420       30,860       38,702       34,405       36,079
Buffalo National River.........................    1,125,227    1,357,057    1,463,304    1,785,359    1,471,330
Fort Smith National Historic Site..............       69,584       88,790      111,469      163,636      141,914
Hot Springs National Park......................    1,325,719    1,424,484    1,418,162    1,544,300    1,561,616
Little Rock Central High School National             114,144      115,908      125,956      129,540      170,413
 Historic Site.................................
Pea Ridge National Military Park...............       95,251      104,686      114,578      119,490      121,163
President William Jefferson Clinton Birthplace         9,838       11,113       10,463       10,468       10,177
 Home National Historic Site...................
----------------------------------------------------------------------------------------------------------------


    b. Overnight stays for each of the past 5 years

----------------------------------------------------------------------------------------------------------------
                                                     2013         2014         2015         2016         2017
----------------------------------------------------------------------------------------------------------------
Arkansas Post National Memorial................            0            0            0            0            0
Buffalo National River.........................       66,578       92,414      101,545       98,413      105,334
Fort Smith National Historic Site..............            0            0            0            0            0
Hot Springs National Park......................       15,100       19,606       24,148       24,021       24,010
Little Rock Central High School National                   0            0            0            0            0
 Historic Site.................................
Pea Ridge National Military Park...............            0            0            0            0            0
President William Jefferson Clinton Birthplace             0            0            0            0            0
 Home National Historic Site...................
----------------------------------------------------------------------------------------------------------------


    c. Current entrance fees

------------------------------------------------------------------------
                                                         Fee
------------------------------------------------------------------------
Arkansas Post National Memorial...........  $0
Buffalo National River....................  $0
Fort Smith National Historic Site.........  $7 per person (age 16 and
                                             above) to view exhibits
Hot Springs National Park.................  $0
Little Rock Central High School National    $0
 Historic Site.
Pea Ridge National Military Park..........  $15 per vehicle, $10 per
                                             motorcycle
President William Jefferson Clinton         $0
 Birthplace Home National Historic Site.
------------------------------------------------------------------------


    d. Site net revenue for the past 5 years for the two Arkansas sites 
which collect fees

----------------------------------------------------------------------------------------------------------------
                                        FY17         FY16         FY15         FY14         FY13       Average
----------------------------------------------------------------------------------------------------------------
Fort Smith National Historic Site.      $64,717      $62,457      $56,909      $50,489      $53,305      $57,575
Pea Ridge National Military Park..      $72,509      $81,778      $73,957      $74,361      $71,280      $74,777
----------------------------------------------------------------------------------------------------------------


    e. Information on concession contracts, historic leasing contracts, 
and any other third-party use contracts at each site is included in 
Attachment #2.

    f. Total acreage of each site

------------------------------------------------------------------------
                                                             Acres
------------------------------------------------------------------------
Arkansas Post National Memorial......................             663.91
Buffalo National River...............................          91,807.04
Fort Smith National Historic Site....................              37.96
Hot Springs National Park............................           4,998.10
Little Rock Central High School National Historic                   2.22
 Site................................................
Pea Ridge National Military Park.....................           4,278.75
President William Jefferson Clinton Birthplace Home                 0.68
 National Historic Site..............................
------------------------------------------------------------------------


    g. Number of structures at each site

------------------------------------------------------------------------
                                                           Structures
------------------------------------------------------------------------
Arkansas Post National Memorial......................                 11
Buffalo National River...............................                225
Fort Smith National Historic Site....................                  4
Hot Springs National Park............................                 65
Little Rock Central High School National Historic                      2
 Site................................................
Pea Ridge National Military Park.....................                 12
President William Jefferson Clinton Birthplace Home                    3
 National Historic Site..............................
------------------------------------------------------------------------


    Question 3. Mr. Smith, as you know, the National Park Service 
comprises only a portion of the deferred maintenance at the Department 
of the Interior. Could you please provide me a breakdown, much like the 
aforementioned report, of each of the deferred maintenance totals at 
each of the different Federal lands units within Arkansas? I'm eager to 
see the total number for my state, and the breakdown between the 
different land management agencies.

    Answer. For Fiscal Year 2017, the following information is reported 
for the bureaus within the Department of the Interior:

    <bullet> there is no Bureau of Land Management deferred maintenance 
            in Arkansas;

    <bullet> the total deferred maintenance for NPS sites in Arkansas 
            is $37,617,654;

    <bullet> the total deferred maintenance for U.S. Fish and Wildlife 
            Service National Wildlife Refuges and National Fish 
            Hatcheries is $28,402,983; and

    <bullet> for information about deferred maintenance on lands 
            managed by the U.S. Forest Service, we defer to the U.S. 
            Department of Agriculture.

    Question 4. Finally, can you provide detailed statistics on the 
success of the Historic Leasing Contracts at Hot Springs National Park, 
and other parks utilizing those contracts around the country? Have they 
reduced the overall maintenance backlog at their respective parks, and 
how much do each of those contracts contribute to the revenue of each 
individual park unit?

    Answer. Currently, five buildings are leased at Hot Springs 
National Park. The park does not have statistics that would gauge the 
success of those leases in reducing the maintenance backlog, but the 
program has been successful in stabilizing, restoring, and utilizing 
the majority of structures in the park.

    Servicewide, the NPS has approximately 350 facilities under lease 
agreements, and last year, over $9.3 million in revenue was generated 
through leasing. More information on the Servicewide leasing program 
may be found in Attachment #3, which is a letter sent to the Senate 
Appropriations Committee on March 29, 2018, containing a list of the 
currently leased buildings broken down by State, park, and facility 
name.

                 Questions Submitted by Rep. Don Young
    Question 1. Historic leasing is a tool that can be used to lease 
structures to qualified non-Federal parties for a variety of uses, 
including for commercial, educational, and residential purposes. Under 
those leases, the lessee has the duty to restore, rehabilitate and 
maintain the buildings. Do you agree that NPS should be using this tool 
aggressively to reduce the maintenance backlog and to prevent 
structures from coming onto the backlog in the future?
    Answer. The NPS authority to lease historic structures is a 
valuable tool to generate funding that can help reduce the maintenance 
backlog and to provide the preventive and corrective maintenance needed 
to avoid adding to the backlog. We are actively using this authority as 
allowed by our laws, regulations, and policies.

    Question 2. There is an old NPS attitude that the Service should 
not use leases or similar tools for any structure in a national park 
because it results in less than total control by the local park staff. 
Do you ascribe to that attitude?

    Answer. The NPS supports the use of the leasing authority. There 
are cases where the NPS is unable to use this authority due to legal or 
financial viability reasons, however the NPS does not avoid its use 
because of any perceived loss of control.

    Question 3. What is NPS doing to explore the use of historic 
leasing throughout the Park System? How many historic leases have been 
issued by NPS and for what parks and what uses?

    Answer. We currently have approximately 350 facilities under lease 
agreements throughout the National Park System and we continue to 
identify new potential facilities on an ongoing basis. By law, a park 
has to determine, among other things, that a structure is not needed 
for park purposes before it can be offered for lease. Attachment #3 is 
a letter sent to the Senate Appropriations Committee on March 29, 2018, 
which contains a list of the currently leased buildings broken down by 
State, park, and the facility name.

    Question 4. Are there any units of the National Park System where 
historic leasing is specifically prohibited or ruled out as an option 
by any rules, policies, or planning documents? If so, what is the basis 
for that action by NPS?

    Answer. There are no units of the NPS that specifically prohibit or 
rule out the option of leasing. However, by law (54 U.S.C. 102102) and 
regulation (36 CFR 18) the NPS is prohibited from entering into a lease 
where the proposed activities are subject to authorization through a 
concession contract, commercial use authorization, or similar 
instrument.

                   Questions Submitted by Rep. Sablan
    Question 1. In the Northern Marianas, American Memorial Park was 
badly damaged by Typhoon Soudelor in August 2015. It has been over 2 
years and recovery work is still underway. Ongoing issues include 
debris removal, repair of the riprap at the marina, and replanting of 
trees that were uprooted by the storm. Can you provide a list of items 
still requiring repair/replacement and an action timeline?

    Answer. Work to restore facilities and grounds of American Memorial 
Park is ongoing. Over $500,000 was expended in the first 18 months 
after the storm to accomplish the most urgent repairs including 
replacing lighting and walkways. Additional projects have been 
identified and are being reviewed for funding in future fiscal years. 
The American Memorial Park staff are continuing to clean up and dispose 
of the remaining vegetative debris. The Saipan Mayor's office has been 
providing support to the park to rehabilitate the area north of the 
pathway to Micro Beach. The NPS is very appreciative of the Mayor's 
continued support and assistance as the park continues to recover from 
the typhoon.

    Typhoon-related repair/replacement items in progress and identified 
for American Memorial Park include:

    <bullet> Replace Landscape Lighting Damaged by Typhoon Soudelor: 
            New lights will be installed by park staff in early fall 
            2018.

    <bullet> Replace Rusted Culvert & Concrete Walkway at Reconstructed 
            Wetland with Bridge: Design underway, construction contract 
            to be awarded in early 2019.

    <bullet> Rehabilitate Walkway & Seating Area at Amphitheater to 
            Improve Visitor Experience & Safety: Design underway.

    <bullet> Resurface Tennis Court Play Surface.

    <bullet> Install Roll-out pavers on unpaved Access Roads.

    <bullet> Replace Four Flagpoles at the Court of Honor.

    <bullet> Install Asphaltic Concrete Pavement on Micro Beach Loop 
            Road.

    <bullet> Repair Shoreline Barriers at Smiling Cove & Outer Cove.

    <bullet> Rehabilitate/Seal Leaks in Concrete Structure at 
            Administrative Offices.

    <bullet> Revegetate Area North of Micro Beach Damaged by Typhoon 
            Soudelor.

    Question 2. At my request, and under P.L. 113-291, the Park Service 
is undergoing a study of the unique natural and cultural resources of 
the island on Rota in the Northern Marianas to determine the national 
significance of the area and the suitability and feasibility of 
designating the area as a unit of the National Park System. Public 
Meetings on Rota were held in February of last year. Can you provide an 
update on the progress of the study and a timeline for its conclusion?

    Answer. The study team is preparing preliminary findings (resource 
significance, suitability, feasibility, and need for NPS management) 
for review by NPS. After this review, we will share the preliminary 
findings and any alternatives by NPS leadership, with local leadership 
and the people of Rota. After that, the study will be finalized, and 
then transmitted to Congress. We expect this process to take at least 
another year and a half.

                   Questions Submitted by Rep. Costa
    Question 1. In 2017, Secretary Zinke indicated that the Department 
of the Interior (Department) would study allowing private enterprise to 
expand their current management of certain campgrounds throughout the 
National Parks System (NPS). Has the Department considered or modeled 
the impacts of the additional contract fees and/or additional revenues 
that could be gained through this modification of policy and how this 
might help address the issue of maintenance backlog?

    Answer. Currently, analysis of campground management and decisions 
about contracting with concessioners for additional campground 
operations are made at the park level. NPS commercial services experts 
help individual parks determine whether converting an NPS-operated 
campground to a concessioner-operated campground would improve the 
facilities, financial sustainability, visitor experiences, etc. 
National Park System units that have recently converted NPS-operated 
campgrounds to concessioner-operated facilities include Denali National 
Park, Everglades National Park, and Olympic National Park.

    Question 2. Secretary Zinke proposed increasing fees considerably 
at 17 highly visited national parks, including Yosemite National Park, 
during peak visitor seasons. There was an overwhelming outcry from the 
public opposing the proposed fee increases. Can you tell us the status 
of the analysis of those public comments and the Administration's next 
steps?

    Answer. After carefully considering the public comments provided on 
the 2017 fee proposal, the NPS revised its proposal and developed a 
balanced plan that implements modest increases at the 117 fee-charging 
parks as opposed to larger increases proposed for 17 highly visited 
national parks. As part of this plan, the NPS will also fully implement 
the four-tier existing fee structure by 2020.

                 Questions Submitted by Rep. McClintock
    Question 1. At its current capacity, how much annual funding could 
the National Park Service expend toward the completion of deferred 
maintenance projects?

    Answer. The NPS Denver Service Center (DSC) provides project 
management, quality assurance, compliance, permitting, and technical 
support services for projects, which include deferred maintenance on 
existing facilities, historic structures, and infrastructure systems. 
In Fiscal Year 2017, the Design and Construction division managed 281 
projects worth more than $1.7 billion, which is an indicator of NPS 
capacity to address maintenance needs under our current funding levels.

    For transportation projects that involve roads, bridges, tunnels, 
etc., the NPS utilizes a 1983 Interagency Agreement with the Federal 
Highway Administration (FHWA) to provide technical engineering services 
and project construction awards, and construction management through 
the Federal Lands Highway Program. Consequently, the NPS capacity to 
manage these projects also relies on that of the FHWA.

    Question 2. With substantially more funding available through the 
Infrastructure Fund, how long would it take the park service to ramp up 
its project planning and operations capacity to take on more deferred 
maintenance projects?

    Answer. To implement the Fund, the NPS would move quickly to 
leverage resources and expertise Department-wide to speed up 
construction capabilities. The number and type of FTE or contracted 
staff that would be needed to accomplish deferred maintenance projects 
would depend on the amount of additional funding made available, but 
the NPS would mobilize to strengthen short-term capacity in 
procurement, project planning and project management. Several projects 
within the NPS 5-year plans could be accelerated if additional funds 
are available and the NPS is working to develop a longer list of shovel 
ready projects should the Fund be enacted. Typical recurring 
maintenance projects accomplished with 1-year funds can take up to a 
year to complete while larger projects through multi or no year fund 
sources can take up to 4 or more years to complete. Should legislation 
become law, the Park Service is confident that it can expend the 
increased resources in an efficient and capable manner to help resolve 
our maintenance backlog.

    Question 3. Klondike Gold Rush National Historical Park in Skagway, 
Alaska is a successful example of the Historic Leasing Program. 
Historic buildings are leased to local businesses that provide visitor 
services. What steps can be taken to expand this revenue generating 
program to provide additional funding for the National Park Service 
that could be put to address the deferred maintenance backlog?

    Answer. Attachment #3 is a letter to the Senate Appropriations 
Committee dated March 29, 2018, which discusses regulatory impediments 
to expanded use of leasing authority.

    Question 4. One-half ofthe NPS maintenance backlog is paved roads, 
bridges, and tunnels (50.8 percent according to latest FY 2017 NPS 
report). Considering that some National Park Service owned parkways, 
such as George Washington Memorial Parkway, are essentially busy 
commuter highways, do you believe that tolling could play a role in 
generating funds to repair these roads and bridges?

    Answer. The NPS does not currently have authority to levy tolls. 
Such authority would have to come from congressional action. A 
comprehensive analysis including mission, policy, cultural resource 
impacts, technology alternatives, staffing, and financial 
sustainability would be required to determine whether tolling would be 
a cost effective way to generate repair funds.

    Question 5. Mr. Smith, NPS' contracting authority was expanded 
under recent law, which authorizes management contracts rather than the 
traditional concession contracting process in certain situations. We 
have heard concerns that such a move would be outside NPS' expertise, 
could expose the Federal Government to additional financial risk, and 
could exacerbate the current NPS capital funding problems.

    Answer. The Visitor Experience Improvements Authority (VEIA), 
enacted in 2016 as part of the National Park Service Centennial Act 
(P.L. 114-289), provides the Secretary with additional flexibility to 
expand, modernize and improve commercial services contracts for the 
operation and expansion of commercial visitor facilities and visitor 
services programs in units of the national park system. To the extent 
that there are risks in using the VEIA authority, the risks are 
minimized by the fact that this authority is time-limited through 2023; 
it can only be used for contracts lasting 10 years or less; it cannot 
be used for contracts that have a preferential right of renewal or 
contracts for outfitter and guide services; and it will not provide any 
leasehold surrender interest or other compensation to the contractor at 
the termination of a VEIA contract. In addition, NPS has hired a 
consultant with expertise in this field to assist in the development 
and implementation of sound VEIA business models that would not create 
undue financial risks. The NPS intends to use the VEIA authority, as 
appropriate, in addition to continuing to use the concession authority 
provided by the Concessions Management Improvement Act of 1998 to 
provide the greatest benefits to the parks and visitors.

    Question 6. Are you aware of ongoing work within NPS to move away 
from concession contracts?

    Answer. The NPS is committed to using the range of authorities it 
has to provide the best visitor services possible. Using VEIA, along 
with traditional concession contracts, commercial use authorizations, 
and leasing, will allow the NPS to find the right tool to provide the 
best visitor experience.

    Question 7. What is your position on a transition from concession 
contracts to the use of management contracts?

    Answer. At this time, the NPS is developing operating procedures 
and regulations for VEIA and has not yet began to utilizing these types 
of contracts. However, we believe that management contracts have the 
potential to greatly benefit the NPS by increasing revenues, increasing 
competition for contracts, improving the quality of commercial services 
and improving customer service and satisfaction.

             Additional Information Provided for the Record
    Several questions were asked of Deputy Director Smith during the 
hearing that required follow-up information. That information is 
provided below.
Representative LaMalfa asked how many parks have had fires in the last 
        15-20 years.

    Answer. Over the 20-year period of 1998-2017, 216 National Park 
Service (NPS) units have had at least one fire on lands within their 
park boundaries. This number includes both wildland fires and 
prescribed burns.

Representative McClintock asked how much of the backlog maintenance 
        cost is due to regulations.

    Answer. The current estimated $11.6 billion NPS maintenance backlog 
reflects the labor and material costs associated with maintenance work 
that has been deferred for at least 1 year. The costs for completing 
National Environmental Policy Act and National Historic Preservation 
Act (NEPA/NHPA) compliance, planning, design, construction management 
services, and construction contingency are not included in the $11.6 
billion figure. These costs are developed at the project formulation 
stage and applied on a project-by-project basis.

    The deferred maintenance backlog estimate also does not include 
non-deferred maintenance costs. Most projects, however, include both 
deferred and non-deferred maintenance components. Correcting code 
deficiencies is an example of a non-deferred maintenance activity. The 
activity does not relate to the failure to perform scheduled 
maintenance (resulting in a deferral), but relates to upgrades needed 
to meet evolving code compliance.

    As an example, at Yosemite National Park, the Fiscal Year 2018 Line 
Item Construction (LIC) project to rehabilitate the Wawona Wastewater 
Treatment Plant includes both deferred maintenance and code compliance 
components. Much of the work involves constructing new systems needed 
to prevent effluent discharge in the Merced River as the State will no 
longer permit such discharge. The project's total net construction 
amount is $18.286 million, of which 20 percent is deferred maintenance. 
After construction contingency and construction management services are 
included, the Fiscal Year 2018 LIC budget request is $21.578 million.

    As another example, at Mammoth Cave National Park, the Fiscal Year 
2018 LIC project to Reconstruct Unsafe Cave Trails has a net 
construction value of $11.775 million, of which 90 percent is deferred 
maintenance. The only non-deferred maintenance component relates to the 
addition of handrails, stairs, and ramps in some areas to enhance 
safety. After construction contingency and construction management 
services are included, the Fiscal Year 2018 LIC budget request is 
$13.894 million.

    The LIC program typically budgets 22 percent of the estimated net 
construction costs for compliance, and planning and design, which are 
ideally funded 1 to 2 years prior to the construction budget request. 
Because these costs are calculated for projects that combine deferred 
and non-deferred maintenance elements, we are not able to determine the 
portion of these costs that are associated only with the deferred 
maintenance components of NPS projects.

Delegate Bordallo asked about a requirement regarding local hiring in 
        the enabling legislation for the War in the Pacific National 
        Historical Park.

    Answer. The requirement regarding local hiring is referenced in the 
Park's legislation and it directs the NPS to employ and train residents 
of Guam or of the Northern Mariana Islands to develop, maintain and 
administer the park. Delegate Bordallo was interested in what efforts 
the NPS has undertaken to meet this requirement in recruiting qualified 
Guam residents for vacancies at the War in the Pacific National 
Historical Park.

    Employing residents is integral to accomplishing the mission for 
War in the Pacific National Historical Park. Residents know the local 
cultures and languages, which is critical to developing appropriate 
education and outreach programs. They also know local experts with whom 
the park can partner to accomplish projects. Of the 24 War in the 
Pacific National Historical Park employees on Guam, 18, or 75 percent 
of the park's workforce, are Guam residents.

    The park has been very successful in using student-hiring 
authorities to recruit Guam's youth into the NPS and uses the Pathways 
program frequently, converting many student hires into permanent 
positions. Six employees (29 percent of the park's workforce) began 
their careers as student interns and are now permanent employees. The 
park also uses the Veterans' Recruitment Appointment hiring authority, 
and presently has five veterans on staff, all of whom are Guam 
residents.

    Although seasonal hiring authority is not used often, the park has 
hired local residents to help during the summer when education programs 
and other events are scheduled. The park has used temporary or term 
appointments to provide some flexibility in their staffing strategy for 
larger projects, such as facility repair or rehabilitation.

                                 *****

                              Attachment 1
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                             Attachment 2
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                             Attachment 3
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                                 March 29, 2018

The Honorable Lisa Murkowski
Chairman, Subcommittee on Interior,
  Environment, and Related Agencies
Committee on Appropriations
United States Senate
Washington, DC 20510

    Dear Chairman Murkowski:

    This letter is in response to the Subcommittee's request to provide 
a report on the National Park Service's use of leasing authority for 
historic structures. Language contained in House Report 114-632 
accompanying the Department of the Interior, Environment and Related 
Agencies Appropriation Bill, 2017 (H.R. 5538) is included in the Joint 
Explanatory Statement that accompanied the Consolidated Appropriations 
Act, 2017. The language from House Report 114-632 is as follows:

        Leasing of Historic Buildings.--Leasing of historic park 
        buildings has proven to be an effective public-private 
        partnership that has brought private investment to the repair 
        and maintenance of historic park resources. In previous 
        Committee reports, the Committee has encouraged the Service to 
        make expanded use of leasing authority. The Committee commends 
        the Service for recent steps it has taken to increase the 
        utilization of this tool, including establishing a leasing 
        manager to oversee and expand the historic leasing program. The 
        Committee renews its previous request that directs the Service 
        to provide a report, within six months of enactment of this 
        Act, detailing its progress toward expanding use of this 
        authority. Included in this report should be (1) a list of 
        structures the Service considers high-priority candidates for 
        leasing, (2) a list of structures currently under a lease 
        arrangement, (3) an estimate of the number of leases that have 
        enabled private sector investments using the Service-
        administered historic tax credit, and (4) any statutory or 
        regulatory impediments that now inhibit the enhanced use of 
        leasing of historic structures.

    The National Park Service (NPS) has authority to lease historic and 
other buildings and associated property under the National Historic 
Preservation Act and the National Park Omnibus Management Act of 1998. 
The NPS continues to make progress toward increasing the number of 
public-private partnerships through leasing. In the last 18 months the 
NPS has executed a master residential lease at First State National 
Monument; a lease with Navajo Nation Hospitality Enterprises, a wholly 
owned subsidiary of the Navajo Nation, at Canyon De Chelly National 
Monument; and executed an Inter-Agency Agreement with the United States 
Forest Service to lease two buildings at Fort Vancouver National 
Historic Site.

    In addition, the NPS is currently preparing to enter into 
negotiations with a potential lessee for the Riis Beach Bathhouse at 
Gateway National Recreation Area; is working on an agreement with the 
Bureau of Indian Affairs to occupy one of the buildings at Fort 
Vancouver National Historic Site; and recently issued a request for 
proposal for the Maurice bathhouse at Hot Springs National Park. The 
leasing program staff is also continuing to develop formal training for 
NPS staff to expand capacity across the NPS to initiate and manage 
park-level leasing programs. As part of that effort, the NPS has 
integrated a leasing section into the annual Commercial Services 
Training for Superintendents curriculum.

    House Report 114-632 requested that the following information be 
included as part of this report:

    <bullet> A list of structures that the Service considers high-
            priority candidates for leasing

    See enclosed list. The NPS prioritizes eligible properties for 
leasing based on knowledge that park staff have regarding local market 
demand for facilities, along with direction from the servicewide 
leasing program office. The enclosed list reflects those properties for 
which parks and regions are actively working on leasing. The list 
contains properties under a range of situations, including those for 
which the NPS expects to issue a Request for Proposal within the next 2 
years, those for which a Request for Proposal received no responses, 
and those that were under life tenancy and have recently transferred to 
NPS control.

    <bullet> A list of structures currently under a lease arrangement

    See enclosed list, which includes properties reported by parks 
through regional leasing and concession staff. This information has 
been checked against the NPS facility management database.

    <bullet> An estimate of the number of leases that have enabled 
            private sector investments using the Service-administered 
            historic tax

    While the NPS does not include language in its leases that would 
prevent a lessee from taking advantage of the historic preservation tax 
credit, there are requirements for obtaining historic preservation 
certification from the National Park Service and the State Historic 
Preservation Office, as well as Internal Revenue Service regulations 
governing the tax credits for rehabilitation that must be met before 
the tax credit can be utilized by the lessee.

    The NPS is currently aware of three lessees that have taken 
advantage of the benefits offered by this program: Cavallo Point Lodge 
at Fort Baker, the Argonaut Hotel in Golden Gate National Recreation 
Area, and the Quapaw Bathhouse at Hot Springs National Park. It is 
possible that other lessees have used the historic tax program 
previously, but NPS records do not cover a number of the early years of 
the tax-credit program.

    <bullet> Are there any statutory or regulatory impediments that now 
            inhibit the enhanced use of leasing of historic structures?

    The NPS has authority to enter into a lease with any ``. . . person 
or government entity . . .'' (54 U.S.C. Sec. 102102(a)). Other 
agencies, with some exceptions, generally do not have such authority, 
which is instead vested with the General Services Administration (GSA) 
(40 U.S.C. Sec. 585). Therefore, other federal agencies are often 
reluctant to execute agreements with the NPS to occupy facilities that 
are administered by the NPS without going through the General Services 
Administration. So, while the NPS is authorized to lease structures to 
any governmental entity, other agencies do not have clear, specific 
authority to enter into a lease with the NPS without going through GSA. 
However, under the Service First authority (43 U.S.C. Sec. 1703), the 
NPS can enter into leases with other agencies within the Department of 
the Interior and the Department of Agriculture, without consultation of 
GSA.

    In general, market conditions and demand pose the greatest 
challenge to expanding the current leasing program. Investors are often 
more interested in purchasing outright `fee title' property, rather 
than investing in the rehabilitation of a property that is owned by, 
and possession of which will eventually be returned to, the federal 
government. Also, the lease opportunities available within parks may 
not provide a viable business opportunity given the higher costs 
associated with the restoration or rehabilitation of the structures 
compared to the relatively low rents available in local areas, many of 
which are rural and sparsely populated. In more urban areas, there 
appears to be a greater demand from the public to lease facilities in 
parks for residential use, office space, or other commercial activity.

    Additionally, NPS has limited resources available to conduct the 
up-front planning necessary to determine fair market value rent, and to 
develop the required Request for Proposal to lease historic facilities. 
Without such work, the NPS cannot accurately gauge the level of private 
sector interest in its properties.

    The NPS greatly appreciates the Committee's support throughout the 
appropriations process and looks forward to collaborating to find 
creative ways to utilize public-private partnerships to help preserve 
and maintain historic assets for future generations to use and enjoy.

    A similar letter has been sent to the Honorable Tom Udall, Ranking 
Minority Member, Subcommittee on Interior, Environment, and Related 
Agencies, Committee on Appropriations, U.S. Senate; the Honorable Ken 
Calvert, Chairman, Subcommittee on Interior, Environment, and Related 
Agencies, Committee on Appropriations, House of Representatives; and 
the Honorable Betty McCollum, Ranking Minority Member, Subcommittee on 
Interior, Environment, and Related Agencies, Committee on 
Appropriations, House of Representatives.

            Sincerely,

                                        Olivia B. Ferriter,
                                         Deputy Assistant Secretary
                      Budget, Finance, Performance, and Acquisition

Enclosures
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 

    The Chairman. Thank you. I appreciate that.
    We will now turn to Mr. Guertin, who is recognized for 5 
minutes for your opening testimony.

  STATEMENT OF STEVE GUERTIN, DEPUTY DIRECTOR, U.S. FISH AND 
WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR, WASHINGTON, 
                               DC

    Mr. Guertin. Good morning, Chairman Bishop, Ranking Member 
Grijalva, and members of the Committee. I am Steve Guertin, 
Deputy Director of the U.S. Fish and Wildlife Service. I 
previously served as Regional Director for Mountain Prairie 
Region based out in Colorado and, before that, as the budget 
officer for the Service here in headquarters. I appreciate the 
opportunity to testify about the Service's maintenance backlog.
    The Service manages 566 national wildlife refuges and 72 
national fish hatcheries. We are responsible for over $46 
billion in constructed real property assets that include over 
40,000 structures, roads, bridges, dams, and water control 
structures. Our estimated deferred maintenance backlog is $1.4 
billion.
    National wildlife refuges are vitally important to 
conserving the wildlife heritage of America, and are also 
valued destinations for local residents, as well as 
vacationers. Every state and territory has wildlife refuges, 
and over 50 million Americans visit these sites each year. They 
generate over $2 billion for local economies, and support tens 
of thousands of private-sector jobs.
    A refuge that could benefit from infrastructure funding is 
Big Oaks Refuge in Indiana. This is an especially important 
place for migratory birds, and it is home to more than 200 bird 
species. Access is impaired because a bridge on the refuge has 
been closed since 2001.
    Wallkill River Refuge in New Jersey is home to many 
grassland birds, migratory water fowl, wintering raptors, and 
endangered species. Public access to this refuge is 
significantly reduced because one of its trails is closed due 
to extensive dangerous degradation.
    Besides infrastructure funding, another way to reduce the 
maintenance backlog is to grant the Service the authority to 
use compensation obtained from responsible parties to directly 
repair damages to refuges. Under current law, when our 
resources are injured, the costs of repair are added to our 
maintenance backlog and must come from our appropriated budget. 
Congress can help by enacting the Administration's legislative 
proposal to give the Service this needed authority.
    Thank you for your interest in addressing the Service's 
maintenance backlog, and the opportunity to testify today. I 
will be glad to answer any questions the Committee has. Thank 
you for your time.

[The prepared statement of Mr. Smith and Mr. Guertin, U.S. 
Department of the Interior appears on page 71.]

                                ------                                


    The Chairman. Thank you. And I appreciate the 
Administration's testimony being extremely brief, too.

    Mr. Iobst, you are now recognized for 5 minutes.

     STATEMENT OF STEVE IOBST, NATIONAL PARK CONSERVATION 
 ASSOCIATION, NATIONAL PARK SERVICE, RETIRED, FORMER CHIEF OF 
  FACILITY MANAGEMENT FOR YELLOWSTONE NATIONAL PARK, DRIGGS, 
                             IDAHO

    Mr. Iobst. Chairman Bishop, Ranking Member Grijalva, and 
members of the Committee, thank you for inviting me to testify 
at this important hearing. I am Steve Iobst, and I worked for 
the National Park Service for 43 years. I retired as Deputy 
Superintendent of Yellowstone National Park in 2016, after 
several assignments in parks in the Denver Service Center.
    Relevant to this hearing, I was responsible for planning, 
design, rehabilitation, construction, and historic preservation 
projects, as well as facility maintenance and park operations 
that totaled nearly $1 billion. I testify today in my capacity 
as the member of the Northern Rockies Regional Council, the 
National Parks Conservation Association, an organization that 
represents more than 1.2 million members and supporters across 
the country. I am also affiliated with the Coalition to Protect 
America's National Parks, a membership of over 1,200 former 
National Park Service employees.
    The NPCA, the Coalition, the Pew Charitable Trust, and the 
National Trust for Historic Preservation are among the many 
public interest groups throughout the country dedicated to 
addressing this issue, and we are grateful for your attention 
to the need.
    Increasing current funding sources is critical, including 
philanthropic giving and appropriated fee revenue to address 
the full scope of the maintenance backlog. In this regard, we 
commend Senators Warner and Portman, as well as Representatives 
Herb Kilmer, Reichert, and Hanabusa for introducing the 
National Park Service Legacy Act.
    My first career assignment in the Park Service was as a 
design engineer completing projects in over 40 parks, and with 
Yellowstone in 1979 as the park engineer. At the Rocky Mountain 
National Park, I was Chief of Facility Management, then 
appointed Deputy Superintendent of Grand Teton. I returned to 
Yellowstone in 2003 as Chief of Facility Management, and was 
promoted to Deputy Superintendent.
    During my time with the National Park Service we struggled 
to address park maintenance needs that were constantly falling 
behind in making repairs. Currently, the backlog is estimated 
at a half-a-billion dollars. This may be a staggering total, 
but it is not only the restrooms, there are trails that need 
repair. It is also many large projects that are tens and even 
hundreds of millions of dollars. At Yellowstone, the largest 
need is for road reconstruction.
    During my time, appropriating funding was not sufficient 
for reaching maintenance. Caring for the inventory of assets 
only second to the Department of Defense requires consistent 
and sufficient funding. At Yellowstone we consistently ran at a 
maintenance funding of about 40 percent of what was needed, 
just to keep the deferred maintenance backlog from growing. 
Revenue certainly helps, and a lot of that is dedicated to 
deferred maintenance. However, the recently proposed fee hike 
would address less than 1 percent of the backlog.
    Deferred maintenance also addresses many significant 
historic structures across our great Nation. We do have a 
number of questions and look forward to greater clarity of the 
Administration's proposed Public Lands Infrastructure Fund. We 
note that any fund to address maintenance should not be or not 
rely on any energy initiatives that threaten the health of our 
public lands, waters, our parks and ecosystems that we rely on.
    The revenue sources cannot just be dedicated funds. It must 
also be reliable and dependable. Construction projects rely on 
multi-year funding that is known and dependable. Consider the 
Yellowstone Road program, a program of projects identified well 
into the future. Project development often starts 5 years 
before construction. Document preparation, as well as 
contracting, starts 2 to 3 years out. Yellowstone's road 
program has been successful for 30 years, due to multiple-year 
programs and projects with reliable and predictable funding 
stream.
    Addressing park maintenance is critical. Americans and 
international visitors are coming in more numbers every year--
2017 saw 330 million visits to our park system, equal to the 
Centennial year of 2016.
    In conclusion, the National Parks Conservation Association 
and our many partners concerned with the park funding crisis 
are grateful for the Administration and Members of Congress on 
both sides of the aisle for now prioritizing public lands 
infrastructure. We also commend the Administration for now 
supporting the concept of dedicated funding. We urge the 
Administration and members of the Committee to work with the 
bipartisan champions of the National Park Service Legacy Act.
    I ask that you consider that national parks are precious to 
America as pristine watersheds and carbon sinks. The parks 
represent America's natural and cultural heritage. Our parks 
reflect who we are, as Americans. If we don't care for them and 
restore them, it reflects poorly on us, as a people.
    Thank you for the opportunity to testify and for the 
Committee's consideration of our views.

    [The prepared statement of Mr. Iobst follows:]
   Prepared Statement of Steven F. Iobst, Northern Rockies Regional 
        Council Member, National Parks Conservation Association
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, thank you for inviting me to testify at this important 
hearing. I am Steven F. Iobst. I worked for the National Park Service 
for 43 years in many different assignments. I retired as Deputy 
Superintendent of Yellowstone National Park in 2016 after several 
assignments in parks and the Denver Service Center. Relevant to this 
hearing, I was responsible for planning, design, and construction as 
well as facility maintenance and park operations over those 43 years. I 
am a civil engineer.
    I testify today in my capacity as a member of the Northern Rockies 
Regional Council of the National Parks Conservation Association (NPCA), 
an organization that represents more than 1.2 million members and 
supporters across the country who care deeply about our national parks. 
I am also affiliated with the Coalition to Protect America's National 
Parks, a group of over 1,200 former National Park Service (NPS) 
employees who continue to support the parks. That group has testified 
before this Committee as to the urgency of addressing park maintenance 
needs and I appreciate the opportunity to build on those observations 
and recommendations. NPCA, the Coalition to Protect America's National 
Parks, the Pew Charitable Trusts, and the National Trust for Historic 
Preservation are among the many public-interest groups throughout the 
country dedicated to addressing this issue, and we are grateful for 
your attention to the need.
    Through my testimony I hope to convey the scope of the national 
park deferred maintenance needs and the urgency of addressing the need 
through a robust, consistent and dependable funding source. Increasing 
current funding sources is critical, as are supplemental funding 
sources including philanthropic giving and appropriate fee revenue. 
However, what is ultimately needed to address the full scope of the 
maintenance backlog is dedicated funding. We commend the bipartisan 
interest in Congress, in particular the sponsors of the National Park 
Service Legacy Act, for recognizing this need, and now the 
Administration for supporting a dedicated funding approach to public 
lands infrastructure.
    During my time at NPS, we struggled to address park maintenance 
needs and were constantly falling behind in making repairs. My first 
career assignment was as a civil engineer in design at the Denver 
Service Center. Design and construction assignments included projects 
in over 40 parks, including Shenandoah, Yosemite, Acadia, St. Gaudens, 
Gateway, Fire Island, Virgin Islands, and National Capital Sites. In 
1979, I moved to Yellowstone where I began my career in park operations 
as an engineer in Maintenance and Concessions Management as well as 
working directly for the Superintendent to guide Planning, Compliance, 
and Development. Rocky Mountain National Park pulled me away from 
Yellowstone in late-1988 where I served as Chief of Facility Management 
which included a special assignment as Acting Chief of Park Facility 
Management in Washington, DC, where I worked with a team to develop 
today's Asset Management Program. In 1997, I returned to the greater 
Yellowstone area serving as Deputy Superintendent at Grand Teton 
National Park and Acting Superintendent from November 2000 to February 
2002. I returned to Yellowstone in April 2003 to serve as Chief of 
Facility Management for Yellowstone National Park until August 2011 
when I was promoted to Deputy Superintendent. I am proud to say that I 
have extensive experience in facilities maintenance, rehabilitation, 
design, engineering, construction, and contracting. In 43 years I 
directed or provided indirect oversight of nearly $1 billion in 
rehabilitation, new construction, replacement, or historic 
preservation.
    My experience at the park service was one of countless NPS staff 
who have long struggled with the reality that park assets are aging and 
have not received the capital investment they require. This is posing 
serious threats to the ability of parks to meet their mission, preserve 
our natural and cultural heritage, and bolster the visitor experience 
on which countless local economies rely.
    Currently, Yellowstone National Park, where the bulk of my NPS 
career was, is estimated to have at least $497 million in repair needs, 
as of September 30, 2017, according to the NPS online database. This 
may be a staggering total but one thing that is important for Congress 
to understand is that overdue repair projects are not only the leaky 
roofs, degraded trails and pathways, and bathrooms that need repair. 
These projects certainly add up, but there are also many large projects 
at Yellowstone and throughout the country that are each dozens and even 
hundreds of millions of dollars each. At Yellowstone, the largest need 
is for major road repairs and reconstruction after many years during 
which there have not been available funds to address the need. NPS 
highlighted the large scope of the Yellowstone roads need at https://
www.nps.gov/transportation/pdfs/Yellowstone_Roads_Reconstruction-
022016.pdf among numerous other park transportation ``megaprojects'' 
outlined at https : / / www.nps.gov / transportation / 
transportation_needs_beyond_core_program. html.
    While philanthropy and fee revenue have been critical to 
Yellowstone and other parks, it is not realistic to expect that such 
funding sources could cover projects of this magnitude. And of course 
for needs such as the many large water and wastewater infrastructure 
projects, there is simply no appeal for philanthropists who expect the 
government to do its share to care for its assets.
    In my career I do not recall a time when funding matched need, with 
``need'' being defined as the amount of funding required to perform 
routine repairs and preventive maintenance as well as cyclic 
maintenance to keep all assets in good condition. What I experienced 
firsthand each year was that the chief cause of the growth of the 
maintenance backlog was insufficient funding to maintain, repair, and 
in some cases, reconstruct park assets. Caring for an inventory of 
assets second only to the Department of Defense requires consistent and 
sufficient funding. Unfortunately, the Park Service has not been 
receiving this funding. My analysis at Yellowstone, utilizing the Park 
Asset Management Planning Tool, was that we consistently ran a routine 
maintenance program as I just described with 40 percent of the funding 
required to just keep deferred maintenance from growing.

    Parks throughout the system face a diversity of maintenance needs, 
from roads and buildings to trails, water systems, docks, parking lots 
and more. Examples include:

    <bullet> Roads: Kolob Canyon Road, a popular 5-mile scenic drive at 
            Zion National Park, needs $15 million in repairs--an amount 
            that is nearly equal to the entire value of the road 
            itself;

    <bullet> Trails: Also at Zion, among millions of dollars in trail 
            needs are the Overlook Point Trail, the famed Angel's 
            Landing Trail and the West Rim Trail. Walking, hiking, and 
            biking trails at Yosemite are in disrepair or closed. More 
            than $17 million in deferred maintenance affects these 
            systems, including the Yosemite Bike Path, the Stubblefield 
            Canyon Trail, and the Clark Point Spur Trail;

    <bullet> Historic buildings: At San Antonio Missions National 
            Historical Park, nearly $400,000 is needed to repair the 
            office and sacristy of the Franciscan father-president, who 
            oversaw development of these historically important 
            missions. A compound where Native Americans lived, and the 
            walls that encircle it, also requires restoration at a cost 
            of $600,000;
    <bullet> Campsites: At Voyageurs National Park, campsites have more 
            than $1 million worth of deferred maintenance. This 
            includes restoring and improving tent sites, maintaining 
            fire rings, and repairing and installing new bear-proof 
            food storage lockers;

    <bullet> Water Systems: At Rocky Mountain National Park, the 
            primary water system at the park's headquarters, where the 
            Beaver Meadows Visitor Center is located, has 50- to 70-
            year-old pipes that need to be replaced. The cost estimate 
            for this work is nearly $5 million;

    <bullet> Historic landscapes: At Gettysburg National Military Park 
            they comprise by far the largest investment need to restore 
            the park to its original appearance, including addressing 
            invasive plants.

    These and other needs are highlighted by the Pew Charitable Trusts 
on its website at http://www.pewtrusts.org/en/research-and-analysis/
fact-sheets/2017/05/national-park-case-studies. Included with my 
testimony are several of these case studies we ask to be submitted for 
the record.
    Park infrastructure needs are not only facilities that promote and 
enhance the visiting experience. The maintenance problem includes 
projects that help protect natural resources, such as channel markers 
in the Everglades that prevent boaters from harming sensitive 
seagrasses. It also includes many historic structures of national 
significance. From the inspiring civil rights movement history shared 
at Martin Luther King, Jr. National Historical Park's historic 
buildings to the several hundred Native American cultural sites and 
cliff dwellings at Mesa Verde National Park, these world-renowned 
places tell the diverse stories of our Nation. Unfortunately, according 
to FY 2016 data, historic assets represent 45 percent of the 
maintenance backlog and without dedicated funding to address these 
needs, conditions will continue to deteriorate and risk permanent loss 
of these resources.
    There are several ways these diverse repair needs can be addressed. 
I've briefly noted the importance and limitations of philanthropy, and 
my colleagues on the panel offer great insight into this issue. 
Notably, matching philanthropic funds with Federal dollars is critical. 
A successful program in this regard has been the Centennial Challenge, 
which now thanks to the support of this Committee, enjoys a dedicated 
funding source through senior pass revenue. Importantly, this program 
should continue to receive appropriated funding, as there is tremendous 
philanthropic interest in this program, beyond what can be matched 
through the senior pass alone. We urge the Administration to propose 
appropriations for this important program in future budgets.
    Fee revenue, too, is critical, but can only be increased so much 
without becoming prohibitive. Even the recently proposed fee hike for 
the peak visiting season at 17 parks throughout the system would only 
address less than 1 percent of the NPS backlog, and that proposed fee 
hike is one we and others oppose because we fear it is too much and 
threatens to price Americans out of their parks. Fees play an important 
role, particularly in parks such as Yellowstone, but are not a 
realistic or appropriate source to provide the level of funding needed 
to address the bulk of park maintenance needs.
    We know that in recent years, NPS has explored avenues for greater 
efficiencies and cost savings such as improvements in energy 
efficiency. We know that technology improvements are among the avenues 
NPS can continue to explore to identify savings that can help with 
maintenance costs. However, these and other supplemental funding 
sources cannot cover the scope of the backlog problem. They cannot 
alone be relied on to address park needs; a serious Federal investment 
is needed.
    Appropriations for day-to-day, cyclic maintenance and larger repair 
projects for non-transportation assets have long been insufficient. 
Appropriations should be increased to better meet these needs. We 
commend the appropriations committees for increasing funding for the 
NPS, including for its maintenance needs, over the last 3 fiscal years, 
with a particularly helpful boost in FY 2016. We urge Congress to build 
on these investments.
    On this subject, I must note that the Administration's FY 2018 and 
FY 2019 budget proposals for appropriated funding are unhelpful and in 
many ways, damaging. We urge the Administration to do better in future 
budgets, and for upcoming FY 2019 budget hearings in this Committee to 
address national park funding needs including but not limited to the 
deferred maintenance challenge.
    At this moment, members of this Committee are positioned to 
advocate for improved funding for NPS in both FY 2018, given the recent 
budget deal, and FY 2019. NPS transportation assets that comprise half 
of the backlog should also receive increased funding through 
appropriations for the Nationally Significant Federal Lands and Tribal 
Projects Program in the Transportation, Housing and Urban Development 
Appropriations Subcommittee, as well as in the next transportation 
bill. We're grateful the last transportation bill, the FAST Act, 
increased funding for park transportation infrastructure, but funds 
remain vastly insufficient.
    We are dismayed that in the current budget climate, and for the 
foreseeable future, the constraints on these funding sources, including 
through the Budget Control Act, will make difficult securing the robust 
level of funding that is needed to address the national park repair 
backlog, despite the commendable bipartisan support Congress has 
shown--and must continue showing--for park funding through current 
transportation and non-transportation revenue sources.
    Thus a dedicated, robust funding source to address the large scope 
of the backlog is needed. In this regard, we commend Senators Warner 
and Portman and Representatives Hurd, Kilmer, Reichert, and Hanabusa 
for introducing the National Park Service Legacy Act (S. 751/H.R. 
2584), as well as the many bipartisan Members of Congress who have thus 
far agreed to co-sponsor this important bill. The bill would dedicate 
more than $11 billion to the parks backlog over 30 years through 
receipts from onshore and offshore energy development not otherwise 
dedicated to other purposes.
    We also commend Congressman Simpson for his commitment to the 
public lands backlog, as well as to the Land and Water Conservation 
Fund (LWCF), through the LAND Act. The concept of addressing both the 
parks backlog and LWCF needs is one NPCA wholeheartedly supports. In 
this regard, we also commend Senators Murkowski and Cantwell for their 
commitment to both of these important needs in the energy bill 
currently before Congress.
    In this context, we feel it is important for the Administration to 
not only express support for and provide its own recommendations for 
addressing park infrastructure, but to work with both parties in 
Congress to arrive at legislation that dedicates reliable revenue to 
the backlog problem through a dedicated funding source. In this regard, 
the Administration's recent proposal is very helpful.
    We do have a number of questions about, and look forward to greater 
clarity of, the Administration's proposed Public Lands Infrastructure 
Fund, which deposits ``half of additional receipts generated by 
expanded Federal energy development'' to address the backlog on 
Department of the Interior (DOI) lands, as well as for Bureau of Indian 
Education schools.
    We must note that any fund to address maintenance should be sure to 
not rely on any energy initiatives that threaten the health of our 
public lands and waters, our parks and the ecosystems on which they 
rely. NPCA urges Congress to recognize that explicitly linking 
infrastructure funding to environmentally threatening and damaging 
energy production proposals would not only threaten the integrity of 
our land, air, water and wildlife but also compromise the bipartisan 
support that's needed to pass a bill to address public lands 
maintenance.
    Critically, the revenue source cannot just be a dedicated fund; it 
must also be a reliable and dependable one. Legislation that dedicates 
funding to the deferred maintenance problem should include several 
components:

    Reliable Funding: Any funding source for national park repairs must 
have certainty. If a funding source relies on projected revenue as the 
Administration's proposal appears to, then those projections must be 
sound such that there is a high level of confidence that there will be 
sufficient funds to address parks' billions of dollars in repair needs. 
As this Committee knows well, passing legislation is very difficult, so 
it is important that legislation will actually address the problem with 
realistic and reliable funds.

    Certainty of Funding Stream: Any funding source must be dependable. 
As I experienced during my time at the Park Service, construction 
projects rely on multi-year funding that is known and dependable at the 
outset, which in part helps NPS to stage projects and work with 
contractors who need funding certainty.

    Consider the Yellowstone Road Program, something I have extensive 
experience with and without question the best inter-agency partnership 
(with the Federal Highway Administration) I have ever experienced. It 
is a program of projects identified well into the future. Scoping, 
permitting, compliance and surveying often start 5 years before 
construction; design, leading to contract documents usually takes 2 to 
3 years. Once construction begins, the project has been in the queue 
for 3 to 5 years. Yellowstone's Road Program has been successful for 30 
years due to multiple 6-year programs of projects with a reliable, and 
predictable, funding stream.
    We fear that without a specific, known amount each year, the 
uncertainty of the funding available would challenge NPS' capacity to 
engage in the procurement and contracting that is needed for successful 
repair and reconstruction projects. The backlog includes many projects 
such as water systems that require at least tens of millions of dollars 
for each project; these projects need multi-year funding. Legislation 
to address the repair backlog must be designed in such a way as to 
provide a dependable revenue stream in this regard.

    In addition to consistent and robust dedicated annual funding, 
legislation to address deferred maintenance should consider:

    <bullet> Funding parity between transportation and non-
            transportation deferred maintenance needs;

    <bullet> A public-private partnership component to leverage non-
            Federal funds for projects that can attract philanthropic 
            interest, while still dedicating robust funding to the many 
            projects that cannot receive philanthropic support;

    <bullet> Giving appropriators discretion with the list of priority 
            projects while still ensuring a dedicated funding stream.

    Addressing park maintenance is critical in part because our 
national parks resonate so deeply with the American public, frequenting 
our parks like never before. The National Park Service celebrated its 
Centennial in 2016. Americans and international visitors participated 
by visiting in record numbers, with more than 330 million visits last 
year, an all-time record. While the data released last week indicate 
on-average essentially flat 2017 visitation compared to 2016, 
visitation clearly remains high. Notably, in some parks to the extent 
that it is further challenging the ability of park superintendents to 
meet needs with insufficient staffing and other resources.
    While last year's crowds stressed the capacity of the Service to 
meet the demand, public reaction remained high, topping 90 percent 
satisfaction. Similarly, the private businesses that support and 
accommodate park visitors saw record years. During peak visitor season, 
these businesses employ more people than the National Park Service. As 
a result of visitor spending in surrounding communities, many of them 
rural, national parks support $32 billion in economic activity 
nationally and nearly 300,000 jobs. The existence value of our heritage 
has significant value to Americans: a recent economic study done by 
Harvard University and the University of Colorado concluded that the 
American public values the services of the National Park Service at $92 
billion.
    Addressing the maintenance backlog also creates jobs. A recent 
study, Restoring Parks, Creating Jobs: How Infrastructure Restoration 
in the National Park System Can Create or Support Jobs, commissioned by 
The Pew Charitable Trusts and conducted by the independent firm Cadmus 
Group, found that more than 110,000 jobs could be created or supported 
if funds were invested to resolve the NPS maintenance backlog.
    On the subject of infrastructure, we must also note before 
concluding this testimony our deep concern with many provisions in the 
Administration's Legislative Outline for Rebuilding Infrastructure in 
America. The proposal seeks to undermine fundamental environmental 
laws, dispose of the NPS-managed George Washington Memorial Parkway, 
allow for expedited construction of pipelines through national parks, 
and otherwise threaten the cultural and natural resources central to 
the preservation of our national parks and their ecosystems. As the 
Administration and Congress work together to address infrastructure, we 
urge these concepts be left out of any legislative package. Such 
provisions would not only threaten public lands and the broader 
environment, but would also compromise needed bipartisanship to move 
such a package to the President's desk.
    In conclusion, NPCA and our many partners concerned with the park 
funding crisis are grateful that the Administration and Members of 
Congress on both sides of the aisle are now prioritizing public lands 
infrastructure. We also commend the Administration for now supporting 
the concept of a dedicated funding stream for public lands maintenance 
needs. Legislation addressing the maintenance backlog must have a 
realistic and dependable funding stream. And such legislation should 
not rely on undermining the integrity of our land, air, water and 
wildlife protections.
    We urge the Administration and members of this Committee to work 
with the bipartisan champions of the National Park Service Legacy Act, 
appropriators, party leadership and other Members of Congress to 
support a dedicated, robust funding stream for national park repair 
needs.
    I am encouraged by the paradigm shift that could lead to a 
transformational change in funding deferred maintenance projects on 
National Park Service lands. I ask that you consider that national 
parks are national, regional, and local economic engines; that national 
parks are precious to America as pristine watersheds and carbon sinks; 
that park sites represent America's natural and cultural heritage; and 
that they are our national identity and irreplaceable.
    Our national parks reflect who we are as Americans. From 
Yellowstone to the Everglades and the Statue of Liberty to the Martin 
Luther King, Jr. Memorial Site, these places are our heritage. If we 
don't care for them and restore them, it reflects poorly on us as a 
people. We have an opportunity before us to do right for our parks and 
the Americans who own and have a deep connection with them.

    Thank you for the opportunity to testify and for the Committee's 
consideration of our views.

                                 ______
                                 

    The Chairman. Thank you.
    Now, Mr. Puskar. Did I get the emphasis right this time?
    Mr. Puskar. Perfect.
    The Chairman. All right. It will be the last time I do it 
correctly.
    [Laughter.]
    The Chairman. You are recognized for 5 minutes.

   STATEMENT OF DAN PUSKAR, EXECUTIVE DIRECTOR, PUBLIC LANDS 
               ALLIANCE, SILVER SPRING, MARYLAND

    Mr. Puskar. Thank you, Mr. Chairman, Mr. Ranking Member, 
and to all members of the Committee for being here.
    The Public Lands Alliance was created 40 years ago by and 
for the non-profit partners of America's public lands. Our 135 
member organizations are truly operational partners, not just 
of national parks and wildlife refuges, but also national 
conservation areas, forests, and more that this Committee 
oversees.
    Ours are the folks helping to staff visitor centers. They 
are hiring and managing conservation corps. They are providing 
educational programs, they are managing volunteers, they are 
supplying interpretive and educational materials. And they are 
not doing these things on the ground in these public lands, 
they are funding it.
    Over $250 million annually is given to these public lands 
through gifts, through in-kind services to help save and 
leverage the other dollars that Congress and others are 
providing to the parks, refuges, and more. And it is because of 
these investments in the visitor experience that we are helping 
to create jobs in local communities to enhance tourism.
    Our members, therefore, rely on and support the 
infrastructure in all of these important places. And deferred 
maintenance drags down or makes impossible the visitor 
experience they want to have, and can create unsafe conditions 
for those working there, whether our esteemed colleagues at the 
agencies or folks like ours on the ground working there day to 
day.
    When we look at places just down the road like Prince 
William Forest, where Nature Bridge is doing an incredible job 
bringing hundreds and thousands of youth from around the DC 
area to have a residential learning experience, they should not 
be worried about the 1930s-era pipes that are keeping the 
cabins that those kids are staying in working. They should be 
worrying about tick season, not worrying about sewage spilling 
over. We need to get more kids there, and these kinds of 
deficiencies are preventing that from happening.
    At places like Red Rock Canyon National Conservation Area, 
the Southern Nevada Conservancy would love to be doing more 
educational programs on their boardwalks, one of the few ADA-
compliant areas to go into the most built core of the national 
conservation area, but they have had to curtail those tours, 
they have had to curtail the ability to go there, because of 
the maintenance problems.
    Partners are working to solve these issues. We are not just 
there hoping that the government will take care of us.
    At Rocky Mountain National Park, the Rocky Mountain 
Conservancy partnered through a Centennial Challenge Grant to 
help repair the Alluvial Fan Trail, bringing on their 
conservation corps, matching one-to-one with the government and 
their own private funds to get work done.
    At St. Mark's National Wildlife Refuge in Florida, the 
Friends of St. Mark's are helping to restore a historic 
lighthouse that can barely get a visitor in it. They open it 
once a year, just so people can see it is still there. There is 
predicted 40,000 visitors a year would go into this historic 
structure, and they can't because there is no money available. 
Partners are raising funds to make that happen.
    As my colleague, Jason Rano, will be talking about as well, 
private philanthropy, non-profit support is a key piece of 
making this solution happen. We can raise money for historic 
structures. We can invest in the visitor experience, in 
recreational opportunities.
    But it is not possible and unlikely that you would get 
donors interested in paving your roads, rebuilding your sewage 
systems. They are not going to be able to do bridges. And, if 
you can imagine a group like Jason's, the National Park 
Foundation, sending out a letter to their donors saying, ``Hey, 
can you help us build a road,'' he is not going to get as many 
supporters as you want him to have.
    We need, as everyone has said on this panel already, 
dedicated, reliable, sizable funding. We need to think big. We 
need to take ideas like the National Park Service Legacy Act 
that the Public Lands Alliance fully supports. We need to think 
big, like the Public Lands Infrastructure Fund proposal, both 
of which, at their core, look to the possibility of taking 
revenue from energy that is happening on our public lands, and 
reinvesting it in infrastructure. That is a great idea. We 
shouldn't just do it in national parks, we shouldn't just do it 
in parks and wildlife refuges. We should do it across 
Department of the Interior lands.
    We should invest in things like the Centennial Challenge, 
not just in the Park Service, but give other lands the 
opportunity to have those matching funds, as well. Together, 
with things like fees and others, we can solve this.
    Thank you so much for your time.

    [The prepared statement of Mr. Puskar follows:]
  Prepared Statement of Dan Puskar, Executive Director, Public Lands 
                                Alliance
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, thank you for inviting me to testify today on this critical 
issue.
    I serve as executive director of the Public Lands Alliance (PLA), 
an organization created 40 years ago by and for the non-profit partners 
of America's public lands. Our 135 member organizations are operational 
partners of more than 600 parks, refuges, conservation areas, lakes, 
and forests with an on-the-ground presence in every U.S. state and 
territory. They staff visitor centers, hire and manage youth and 
veterans corps, conduct educational programs, and provide interpretive 
materials. Not only do PLA members save and leverage government funds 
when providing these services, they also annually contribute more than 
$250 million to our public lands through their philanthropic grants, 
programs and services. By enhancing the public lands visitor 
experience, PLA members create jobs and support national and 
international tourism.
    The vast majority of PLA members rely on public lands 
infrastructure to operate their organizations and programs. PLA 
commends this Committee, the Senate Committee on Energy and Natural 
Resources, and the Administration for its focus on enhancing public 
lands infrastructure, especially those assets that have fallen into 
disrepair after years of neglect. Deferred maintenance is an overall 
drag on the visitor experience as facilities become worn or less 
reliable.

    Through the examples and discussion below, PLA will encourage the 
Committee to:

    <bullet> Create a dedicated, reliable, and sizable funding source 
            for all DOI public lands that eliminates the existing 
            maintenance backlog while providing necessary routine and 
            cyclic maintenance funding to prevent future backlogs.

    <bullet> Incentivize philanthropy and non-profit support for 
            appropriate maintenance projects and other visitor 
            experience enhancements by expanding matching fund 
            programs, like the NPS Centennial Challenge, to other DOI 
            agencies.

              impact of the backlog on non-profit support
    The deferred maintenance backlog has direct and indirect impacts on 
non-profit public lands partners. Consider the following examples:

    <bullet> Prince William Forest Park, VA (NPS): Congress designated 
            the park during the Great Depression as a retreat where 
            urban youth could immerse themselves in nature. The park 
            welcomed thousands of children, who slept in cabins built 
            by the Civilian Conservation Corps and the Works Progress 
            Administration. Non-profit partners like NatureBridge 
            continue this legacy by bringing children and teens from 
            the DC metro area for daytime and overnight environmental 
            education programs. Unfortunately, the park's plumbing 
            rests on the original pipes from the 1930s, which are not 
            properly insulated and have a high risk of bursting in the 
            winter. Consequently, buildings used for youth programs are 
            closed from December through March. Additionally, the old 
            pipe system has issues with backing up, which limits the 
            number of youth who can participate during the already 
            truncated season.

    <bullet> Red Rock Canyon National Conservation Area, NV (BLM): Red 
            Spring Boardwalk is in dire need to replacement. Not only 
            is Red Spring Boardwalk one of the most family friendly 
            destinations in Red Rock Canyon, it should be used 
            regularly for school field trips and is perhaps the most 
            significant ADA compliant trail. The old wooden decking is 
            dry-rotted through in many places and creates a serious 
            safety hazard. Patchwork repairs have been attempted, but 
            the condition has deteriorated to the point of partial 
            closure and one of its non-profit partners, Southern Nevada 
            Conservancy, is no longer able to take groups there for 
            educational programming. Without a complete replacement, 
            the boardwalk may be closed in its entirety.

    <bullet> Shenandoah National Park, VA (NPS): As the philanthropic 
            partner to the park, the Shenandoah National Park Trust is 
            charged to provide a margin of excellence to park programs, 
            not to support fundamental park functions. However, due to 
            a more than $79 million backlog and uncertainties in 
            appropriated funds, NPS in recent years has asked the Trust 
            to redirect its philanthropy. Over the past 3 years, the 
            Trust has therefore provided over a quarter-million dollars 
            of our philanthropy to trail maintenance. As a ``hiker's 
            park'' with over 500 miles of trails, routine trail 
            maintenance should be supported by base funding. This has 
            distracted the Trust from achieving other core mission 
            goals, shared with the NPS, including field trips to our 
            park for Title I schools and critical natural resource 
            research and management programs.

    Directly and indirectly, the backlog is detrimentally effecting 
these non-profit organizations capacity to provide educational and 
experiential learning to young visitors due to a higher-order need for 
visitor access and safety. PLA believes that barriers to access and 
safety on public lands are a core responsibility of the Federal 
Government and should not be pushed on to non-profit or other partners.
           a dedicated, reliable, and sizeable funding source
    Whether it is a deteriorating road or bridge or a crumbling 
historic structure, neglected built assets on America's public lands 
can have a detrimental impact on the experience of visitors as well as 
the employees of land management agencies, non-profit partners, 
concessioners and others whose jobs rely on them. Non-profit partners 
are unable to assist with fixing roads--the primary source of deferred 
maintenance across Federal public lands--or baseline assets like 
wastewater and sewer systems. Philanthropy is unavailable and 
inappropriate for these core Federal Government responsibilities.
    Yet there are examples of infrastructure--such as a resource for 
which a public land was preserved (e.g. the Statute of Liberty or a 
historic lodge) or a source of recreation and enjoyment (e.g. a hiking 
trail)--for which private support can be marshalled. Take, for example, 
the Golden Gate National Recreation Area, managed by the NPS in 
California. The maintenance backlog had resulted in unsafe and 
deteriorating buildings on Alcatraz Island. The conditions threaten the 
island's ability to host visitors including the declining fixed wharf 
on Alcatraz. Maintenance backlog on trails, historic buildings, 
waterfront wharfs and restrooms erode the visitor experience. Because 
of the historic nature and private interest in Alcatraz, the Golden 
Gate National Parks Conservancy has provided a tremendous investment of 
more than $10 million toward its historic buildings and grounds, and 
yet much more funding is required. NPS currently estimates the deferred 
maintenance needs of Golden Gate National Recreation Area at more than 
$325 million. The private sector, even if led by an organization as 
sophisticated as the Conservancy, cannot be expected to tackle this 
massive charge.
    PLA calls on the Committee to identify a dedicated, reliable, and 
sizable funding source that can meaningfully tackle the more than $20 
billion of deferred maintenance on all Federal public lands, including 
those managed by DOI.
    PLA supports the bipartisan National Park Service Legacy Act (H.R. 
2584/S. 751) as one innovative solution. The bill provides more than 
$11 billion to the NPS backlog over 30 years through receipts from 
onshore and offshore energy development that are not dedicated to other 
purposes. It scales this funding up gradually so that the NPS and its 
partners have time to prepare for larger, more complicated projects. 
Importantly, it also leverages philanthropy and non-profit support by 
enabling projects with private funding matches to rise higher in 
priority.
    PLA also welcomes the Administration's outline of the Public Lands 
Infrastructure Fund, which is funded by 50 percent of increased Federal 
energy leasing and development activities over Fiscal Year 2018 budget 
projections. PLA looks forward to seeing a complete bill or proposal to 
understand more clearly how the Infrastructure Fund would achieve its 
revenue target.
    Though using different mechanisms, both the Legacy Act and the 
Infrastructure Fund rely on monies generated annually through the 
production or sale of energy on Federal public lands should be invested 
in deferred maintenance projects on public lands. This basic premise is 
the underpinning of the Land and Water Conservation Fund, as well as 
$50 million provided by the Helium Stewardship Act of 2013 for NPS 
deferred maintenance projects. PLA supports this general approach, with 
the caveat that the revenue stream must be predictable and meet its 
multi-year targets.

    In a final bill, PLA further urges the Committee to:

    <bullet> Broaden the approach to all DOI public lands, including 
            the National Park Service, Fish and Wildlife Service, and 
            Bureau of Land Management. Although beyond the scope of 
            this hearing, the needs of the U.S. Forest Service are also 
            significant.

    <bullet> Maintain an incentive for public private partnership, like 
            the Legacy Act's use of matching funds to effect 
            prioritization.

    <bullet> Institute a gradual increase of available annual funds so 
            that land management agencies can scale up their 
            maintenance, contracting, or other staff to efficiently put 
            these funds to use. Similarly, once the deferred 
            maintenance backlog has been reduced to a manageable level, 
            taper but do not eliminate these annual funds to avoid a 
            new backlog increase in the future.

    <bullet> Pair this focus on the deferred maintenance backlog with 
            continued, coordinated investments in regular and cyclic 
            maintenance and line item construction funding. Without 
            these investments, the backlog will continue to grow, 
            increasing in the long term both public and private costs.

            incentivize philanthropy and non-profit support
    As their budgets tighten, land management agencies increasingly 
have called upon non-profit partners to fund deferred maintenance 
projects directly. Congress too has looked to non-profit partners to 
tackle the backlog in recent legislation, especially the Helium 
Stewardship Act of 2013 and the National Park Service Centennial Act of 
2016, by making new funding available for deferred maintenance in the 
National Park Service if matched at a minimum of 1:1 by private funds. 
Non-profit partners have stepped up, delivering more than $77 million 
in matching funds to Centennial Challenge funds alone since 2015.

    Yet opportunities for leverage are uneven across DOI public lands. 
Consider the following:

    <bullet> Rocky Mountain National Park, CO (NPS): Secretary Zinke 
            recently visited the park to announce combined $400,000 by 
            way of a public-private partnership with the Rocky Mountain 
            Conservancy to rebuild the Alluvial Fan Trail, which 
            sustained serious damage during the 2013 Colorado Floods 
            and remains among the disaster's most visible marks within 
            the park. The money--a Centennial Challenge project that 
            matches $200,000 from the NPS with an identical amount from 
            the Conservancy--will fund Conservation Corps hired and 
            managed by the Conservancy, building skills in youth while 
            simultaneously restoring a popular trail.

    <bullet> St. Mark's National Wildlife Refuge, FL (FWS): The refuge 
            is the home of an iconic Gulf Coast lighthouse, which the 
            Coast Guard transferred to FWS with a leaky roof, rotten 
            floors, and more. Due to unsafe conditions, the site can 
            only be visited once annually by the public. However, the 
            Friends of St. Mark's National Wildlife Refuge has worked 
            with partners to fund a structural assessment that 
            estimated $1.6 million would be needed to fully restore and 
            open it to a projected 40,000 annual visitors. To date, the 
            Friends have raised more than $725,000 and, with 
            contributions from partners and the state of Florida, the 
            tower and keeper house are being restored now. The Friends 
            have also restored the lantern room and the light's lens; a 
            late spring opening is anticipated. FWS has not been able 
            to contribute any funds to this project.

    In addition to highlighting the incredible impact of conservation 
corps on deferred maintenance, the Rocky Mountain National Park example 
underscores the value of the Centennial Challenge to national park 
partners. However, as this program is limited to the NPS, national 
wildlife refuges cannot partake in it and organization's like the 
Friends of St. Mark's must seek leverage outside the Federal 
Government.
    Given the success of the Centennial Challenge, PLA strongly 
recommends that the Centennial Challenge program should scaled up and 
embrace other land management agencies. Although the tradition of 
private philanthropy is not as long in FWS or BLM as it is in the NPS, 
the example of the Friends of St. Mark's highlights its new emphasis, 
as does this Committee's long-standing support for a congressionally 
chartered Bureau of Land Management Foundation.
    PLA believes there is a compelling need to supplement to the 
dedicated, reliable, and sizable funding source with matching funds 
that can be used not only to tackle the deferred maintenance backlog, 
but also projects worthy of philanthropy that will grow the backlog if 
not addressed in a timely manner. Programs like the Centennial 
Challenge that can be used on deferred maintenance yet also tackle a 
broader array of educational and conservation needs give land managers 
in the field and their partners greater flexibility to deliver a 
meaningful visitor experience.
              enhancing access and the visitor experience
    The vast majority of deferred maintenance backlog issues can be 
attributed to a need to increase access to public lands and then to 
improve the experience of those who do visit these special places. Non-
profit organizations that partner with DOI bureaus like the National 
Park Service, Fish and Wildlife Service, and Bureau of Land Management 
share that mission and are eager to work with this Committee and their 
agency colleagues where appropriate and useful. As a representative of 
these partners, PLA stands ready to assist the Committee in any way it 
can to develop a long-lasting solution for the deferred maintenance 
backlog in all DOI managed lands.

    Thank you again for the invitation to testify.

                                 ______
                                 

    The Chairman. Thank you.
    And finally, Mr. Rano.

STATEMENT OF JASON RANO, VICE PRESIDENT, GOVERNMENT RELATIONS, 
            NATIONAL PARK FOUNDATION, WASHINGTON, DC

    Mr. Rano. Chairman Bishop, Ranking Member Grijalva, and 
members of the Committee, thank you for inviting me to testify 
at today's important hearing. My name is Jason Rano. I am the 
Vice President of Government Relations at the National Park 
Foundation, the congressionally chartered philanthropic partner 
of the National Park Service.
    As you know, 2016 was the 100th anniversary of the National 
Park Service. NPS and the Foundation worked together to take 
advantage of this once-in-a-lifetime opportunity to bring 
Americans together to celebrate, and look forward to the second 
century of our national parks through our Find Your Park public 
awareness campaign.
    Thanks in part to these efforts, 2016 saw a record 331 
million visits to our parks. And just last week, NPS released 
2017 visitation numbers, which showed a similar number of 
visits to our 417 national parks. That visitation has risen and 
maintained these levels is a testament to the love and 
importance of our national parks.
    However, increased and sustained visitation to our national 
parks increases the already high strain on them. Secretary 
Zinke and many members of this Committee have made tackling the 
$11.6 billion deferred maintenance backlog a priority.
    The focus of my testimony today is the role of philanthropy 
in reducing the backlog, what can philanthropy do, and what is 
best done with Federal dollars.
    NPF's centennial campaign for America's national parks 
began in 2016 with a $350 million goal. As of today, the 
Foundation has raised $494 million toward our new $500 million 
goal. Working together with NPS, this money has been spent with 
an eye toward improving the visitor experience through the 
rehabilitation and repair of trails and facilities, protecting 
and restoring wildlife habitat, and supporting the work of 
youth and veterans corps to enhance our parks.
    The deferred maintenance backlog is a top priority for 
anyone who loves our national parks. As we see increased 
visitation, we see increased strain on the facilities, the 
trails, the roads, the bridges, and the staff, all of which can 
have a negative impact on the visitor experience.
    Imagine being a first-time or infrequent visitor and 
encountering closed bathrooms, washed out trails, and 
impassible roads. Needless to say, that may impact whether you 
return to the park. And it doesn't just impact the park, it 
also plays a role in the financial health of the hundreds of 
gateway communities that rely on park visitors for survival. In 
fact, in 2016 the 331 million visits to our national parks 
resulted in $18.4 billion in spending, and supported 318,000 
jobs.
    As the conversation has increased around how to tackle the 
deferred maintenance backlog, there has been more discussion 
about what role philanthropy can play in helping to do so. 
Philanthropy can play a role, but it is limited to specific 
areas. Philanthropy is not a panacea for deferred maintenance.
    Through our fundraising campaign, the Foundation has found 
that donors are enthusiastic about projects in national parks 
that rehab, repair, and build trails, as well as restoring 
historic buildings and memorials. What we haven't found is 
donors who are willing to support roads, bridges, sewer 
systems, water pipes, or other hard infrastructure. This type 
of maintenance is viewed by donors as an inherently 
governmental responsibility that should be funded by Congress. 
Donors prefer to provide the margin of excellence that NPF 
can't, because of lack of funds or because of the length and 
uncertainty of the appropriations process.
    The National Park Foundation is committed to continuing our 
work with Congress and our partners at NPS to do what we do 
best: raise philanthropic funds for our parks that match donor 
interest with Park Service need, including the backlog.
    It is important to note, though, that while NPF and local 
friends groups around the country have raised hundreds of 
millions of dollars for projects and programs, and while 
philanthropic enthusiasm for our parks has never been higher, 
philanthropy is not a panacea for deferred maintenance.
    Thank you. I look forward to answering your questions.

    [The prepared statement of Mr. Rano follows:]
Prepared Statement of Jason Rano, Vice President, Government Relations, 
                        National Park Foundation
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, thank you for holding this hearing on ``Exploring Innovative 
Solutions to Reduce the Department of the Interior's Maintenance 
Backlog'' and inviting me to testify. My name is Jason Rano and I am 
the Vice President, Government Relations at the National Park 
Foundation, the congressionally chartered philanthropic partner of the 
National Park Service.
    Chartered by Congress in 1967, the National Park Foundation was 
founded on a legacy that began more than a century ago, when private 
citizens from all walks of life acted to establish and protect our 
national parks. As we celebrate our 50th anniversary throughout this 
year, the National Park Foundation carries on that tradition as the 
only national charitable non-profit whose sole mission is to directly 
support the National Park Service.
    As you know, 2016 was the 100th anniversary of the National Park 
Service. The National Park Service and National Park Foundation worked 
together hand-in-hand to take advantage of this `once in a lifetime' 
opportunity to bring Americans of all ages, races, genders, 
ethnicities, sexual orientations, and political affiliations together 
to celebrate the Centennial and look forward to the second century of 
our national parks.
    Thanks in part to these efforts, 2016 saw a record level of 
visitation to our parks with 331 million visits. Just last week NPS 
released visitation numbers for 2017, which showed a similar number of 
visits to our 417 national parks. In fact, according to NPS, there were 
only 88,000 fewer visits to our parks in 2017 from the record setting 
number we saw in 2016.
    That visitation has risen and maintained these levels is a 
testament to the love and importance of our national parks for 
Americans and people from around the world. Our national parks tell the 
story of America--including important and difficult stories in our 
history.
    However, increased and sustained visitation to our national parks 
increases the already high strain on the facilities, roads, bridges, 
trails as well as hurting the visitor experience by creating traffic 
jams and not having enough staff to effectively interact with visitors.
    Secretary Zinke and many members of this Committee have made 
tackling the nearly $11.6 billion deferred maintenance backlog (as of 
September 30, 2017) a priority.
    The focus of my testimony today is the role of philanthropy in 
tackling the maintenance backlog--basically what can philanthropy do 
and what is best done with Federal dollars.
            centennial campaign for america's national parks
    As many of you are aware, one of the National Park Foundation's 
priorities over the several years has been to capitalize on the 
philanthropic enthusiasm for our parks as part of our Centennial 
Campaign for America's National Parks. Launched in February 2016 with 
an initial goal of $350 million, the campaign has raised $494 million 
to date toward a goal of $500 million. We look forward to reaching this 
historic goal in the next several months.
    This money has been spent with an eye toward improving the visitor 
experience through the rehabilitation and repair of trails and 
facilities, protecting and restoring wildlife habitat, connecting 4th 
graders and their families to parks, and supporting the work of youth 
and veterans corps to enhance our parks.
Deferred Maintenance
    The deferred maintenance backlog is a top priority for anyone who 
loves our national parks. As we see increased visitation we see 
increased strain on our parks--the facilities, the trails, the roads, 
the bridges, and the staff--all of which can have a negative impact on 
the visitor experience.
    The National Park Foundation's Find Your Park/Encuentra Tu Parque 
campaign targeted the millennial generation as the next generation of 
park visitors, many of whom may be first time or infrequent visitors. 
Imagine being a first time visitor to a park and encountering closed 
bathrooms, washed out trails, and impassable roads. Needless to say 
that may impact whether you return to the park. And that doesn't just 
impact the park. It also plays a role in the financial health of the 
hundreds of gateway communities that rely on park visitors for their 
survival.
    In 2016 the 331 million visits to our national parks resulted in 
$18.4 billion in spending and supported 318,000 jobs.
               philanthropic role in deferred maintenance
    As the conversation has increased around how to tackle the deferred 
maintenance backlog there has been more discussion about what role 
philanthropy can play in helping to tackle the deferred maintenance 
backlog. Philanthropy can play a role but it is limited to specific 
areas and often provides the margin of excellence. Philanthropy is not 
a panacea for deferred maintenance.
    Through our fundraising campaign, the Foundation has found that 
donors are enthusiastic about projects in national parks that 
rehabilitate, repair, and build trails as well as restoring historic 
buildings and Memorials--like the Lincoln Memorial and Washington 
Monument.

    A few projects include:

    <bullet> $189,885 to date to support restoration and preservation 
            of Grand Canyon National Park's historic Train Depot. This 
            ongoing project will address accessibility to the Depot for 
            people with disabilities and support structural repairs to 
            the Depot's foundation.

    <bullet> $2 million in matching funds for a 2016 Centennial 
            Challenge project to restore the Drakes Estero marine 
            wilderness at Point Reyes National Seashore. NPF's 
            partnership with Point Reyes National Seashore allowed NPS 
            to clean up 5 miles of oyster racks and remove more than 
            500 tons of aquaculture debris.

    <bullet> $303,034 to Sequoia & Kings Canyon National Parks and 
            Sequoia Parks Conservancy to fund the parks' 21st Century 
            Conservation Service Corps since 2015. The Corps recruits 
            disadvantaged young adults from Fresno and Los Angeles to 
            work in the front and back country of Sequoia & Kings 
            Canyon National Parks. Corps members gain a deep connection 
            to the park and valuable training while completing projects 
            such as wilderness trail maintenance, watering and care of 
            restoration area plantings, interpretive services for 
            visitors, boundary fencing assessment and repair, exotic 
            vegetation removal, and more.

    <bullet> $26,000 for a 2015 Centennial Challenge project at 
            Florissant Fossil Beds National Monument. NPF's support was 
            matched with $26,000 in Federal funds to help the park 
            establish an interdisciplinary Youth Conservation Corps 
            crew. The crew consisted of nine underserved youth from 
            Colorado Springs who developed skills in trail maintenance, 
            trail design and safety features, and protecting and 
            monitoring paleontological sites.
    <bullet> $150,000 to restore the helical staircase and replicate 
            and install the original light fixtures at Glacier National 
            Park's historic Many Glacier Hotel. In partnership with 
            Glacier National Park Conservancy, NPF's funds helped 
            restore the lobby to its historical significance.

    <bullet> Over $110,000 to support work on highly trafficked trails 
            at Glacier National Park, including funding for a 21st 
            Century Conservation Corps to reconstruct the park's iconic 
            Hidden Lake Trail at Logan Pass in 2016.

    <bullet> $121,250 to support a 5-year grant for Yellowstone 
            National Park's Youth Conservation Corps in partnership 
            with Groundwork USA. In August 2017, participants created 
            60 feet of buck and rail fence, built and installed 20 
            bumper guards, revitalized four campsites, maintained 6 
            miles of trail, revegetated 50 yards of steep mountain, and 
            installed and maintained 47 bear proof boxes.

    <bullet> $18.5 million for the rehabilitation and restoration of 
            and expanded public space at The Lincoln Memorial.

    <bullet> $12.35 million for the full restoration of Arlington 
            House, The Robert E. Lee Memorial.

    <bullet> $5.3 million to renovate and rehabilitate the Marine Corps 
            War Memorial (Iwo Jima).

    <bullet> $3 million to renovate the elevator at the Washington 
            Monument.

    What we haven't found in our fundraising is donors who are willing 
to support roads, bridges, sewer systems, water pipes or other hard 
infrastructure. This type of maintenance is viewed by donors as 
inherently governmental responsibilities that should be funded by 
Congress.
    Donors understand that our parks need their support but also 
understand that our parks belong to all of us and that the government 
has a responsibility to fund them. Donors prefer to provide that margin 
of excellence that NPS can't provide because of lack of funds or 
because it will take too long.
    Another important note on the role of philanthropy's limitations is 
the overall dollars raised. NPF is very proud of our Centennial 
Campaign for America's National Parks, which upon its completion will 
have raised $500 million over 5 years (including the quiet phase of the 
campaign). In contrast, the Fiscal Year 2018 Interior Appropriations 
bill passed by the House last year provides $2.9 billion for the 
National Park Service. Even if donors were willing to fund hard 
infrastructure, the dollars aren't there to cover the needs.
                               conclusion
    The National Park Foundation is committed to continuing to work 
with Congress and our partners at the National Park Service to raise 
philanthropic funds to support key projects and programs throughout the 
park system including those that help with the deferred maintenance 
backlog.
    It's important to note though that while NPF and local friends 
groups around the country have raised hundreds of millions of dollars 
for projects and programs and while philanthropic enthusiasm for our 
parks has never been higher, philanthropy is not a panacea for deferred 
maintenance.
    There are a lot of tools that must be utilized to begin the process 
of improving the visitor experience for everyone.

    Thank you for the opportunity to testify.

                                 ______
                                 

    The Chairman. I thank our witnesses for your oral 
testimony. Thank you all for staying within the time limit. We 
will now turn to questions from Committee members.
    I remind the Committee members also that we are on the 5-
minute system here, so you have 5 minutes to ask the questions 
and have them answered. I am asking the Committee to be kind 
enough not to ask a question if there is not enough time to 
actually get an answer back, because I will still cut you off 
at 5 minutes.
    Mr. Lamborn, we come to you first.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
having this important hearing. Thank you to all of the 
witnesses for being here.
    I would like to follow up on what you were just talking 
about, Mr. Smith. And Mr. Rano, thank you. Thank you. I 
couldn't see the tag from here.
    But for both of you, we talk about philanthropy as having a 
role--not a panacea, but having an important role to play--and, 
I hope, an increasing role. What are the policies, and do we 
need to look again at the policies concerning giving 
recognition to that person? Without maybe billboards and over-
commercialization, but a tasteful and reasonable recognition 
that I think is a legitimate and proper thing, especially if it 
keeps those contributions coming further. Could you both 
comment on that, please?
    Mr. Rano. I think that is absolutely right. And Director's 
Order 21, which was finalized a few years ago, made incredible 
progress in doing that. It has played a huge role in the 
Foundation being able to partner with corporate partners, and 
the recognition has been something that they have really 
appreciated.
    So, throughout the Find Your Park campaign, which actually 
continues in another form today, there was recognition of our 
premiere level corporate partners. And that is something that 
has helped bring in about $90 million in corporate donations to 
the Foundation, which has helped.
    Mr. Lamborn. What about signs on the project itself? A sign 
saying this building was contributed through the funds of XYZ 
Corporation.
    Mr. Rano. I would have to defer to my Park Service 
colleague on that.
    Mr. Lamborn. Mr. Smith?
    Mr. Smith. The Park Service has come a long way with 
Director's Order 21, and many of the philanthropic partners 
understand the limitations that have been put on donor 
recognition. Many of them are now fully aware that recognition 
on a donor board inside a visitor center or whatever else is a 
very substantial way to recognize this. To start to put 
nomenclature on every single thing that gets done, a walkway or 
bridge or whatever else, is problematic.
    In my short time back, I am hearing that the donor 
community understands the limits that we have on this, but 
understands that the recognition that we do now provide under 
Director's Order 21 does meet their needs. If it is more of a 
problem, certainly we can have that discussion. But I believe 
we have come a long way to addressing that issue, Congressman.
    Mr. Lamborn. Well, I think we have come a long way, also. I 
would like to keep looking at that. Recognition is important, 
as long as we are striking the proper balance.
    And Mr. Smith, I have you talking here. I would like to 
follow up with a different question. The Committee recently 
passed the 21st Century Conservation Service Corps Act, by 
unanimous consent. Secretary Zinke was a supporter of this bill 
when he was on this Committee. This bill would engage more 
corps and thousands of young people and veterans who serve in 
the corps, like in Colorado, to help address more high-priority 
projects, including backlog maintenance.
    Can you talk about the impact that getting thousands of 
more young people and veterans working on these projects would 
have?
    Mr. Smith. Congressman, it is one of the most thrilling 
things that I can deal with, coming back, to get youth to 
participate on the land, to realize stewardship, to get an 
understanding that these public lands are important to the 
American public. Fully, the Department and I, as Deputy 
Director of the Park Service, fully support getting as many of 
our youth on our Park Service sites nationwide through all the 
corps responsibilities, through the Student Conservation 
Association, through YMCAs, whatever.
    To connect young people and veterans back to these public 
lands is one of the best things we can do to support the 
National Park Service. And the Department is moving in that 
direction, certainly, to support that legislation and to get 
people on the ground. I have been signing grants to accomplish 
just that in the national parks for this coming year, involving 
all of those types of youth groups and veterans groups who will 
provide that on-the-ground stewardship this year.
    Mr. Lamborn. So, these plans are coming along?
    Mr. Smith. Yes. Yes, they are.
    Mr. Lamborn. OK, I appreciate that.
    My time is drawing to a close, so I will yield back the 
balance of my time.
    The Chairman. Thank you. You are doing really well. I am 
proud of you.
    [Laughter.]
    The Chairman. Mr. Grijalva, match that.
    Mr. Grijalva. I hate the unattainable goals that you set 
for me, Mr. Chairman.
    [Laughter.]
    Mr. Grijalva. Mr. Iobst--and I am sorry if I didn't say 
that correctly--one of the deep concerns about the Fiscal Year 
2019 budget for the Department of the Interior is it basically 
eliminates all funding for Federal land acquisition. The budget 
document justifies this massive elimination and cut as an 
opportunity to then focus on deferred maintenance and other 
land management priorities. It undermines 50-plus years of 
success of the Land and Water Conservation Fund. And land 
acquisition, I think, is an important tool that makes 
management more efficient and does increase access to our 
public land.
    In your experience, sir, does land acquisition contribute 
to the deferred maintenance across the National Park System?
    Mr. Iobst. If I understand your question, does land 
acquisition contribute to the deferred maintenance backlog?
    Mr. Grijalva. Yes.
    Mr. Iobst. My experience is very little in holdings that 
are purchased, which actually reduce maintenance costs and 
operations costs in certain parks that I have worked with, like 
Rocky Mountain and Grand Teton.
    Mr. Grijalva. And yes, you just mentioned what the 
importance is in promoting access to public lands and 
acquisition. Do you have to eliminate, as is proposed in the 
budget, land acquisition to focus on deferred maintenance?
    Mr. Iobst. I don't believe that it is something that is 
mutually exclusive. I think the Park Service and other agencies 
in the Department of the Interior, based on my experience, need 
both emphases in order to carry out their mission.
    Mr. Grijalva. Yes. Again, sir, if I may, the other concern 
is the lack of dependability and certainty of the funding 
stream in the President's proposed Public Lands Infrastructure 
Fund.
    Construction projects, as mentioned, rely on multi-year 
funding that is known and dependable at the outset. It helps 
the National Park Service and other agencies to stage their 
project work with contractors. The uncertainty of available 
funding would create difficulty for National Park Service to 
engage in procurement and contracting that is needed to 
successfully repair these reconstruction projects that are run 
multi-year.
    In your perspective, and in your experience, with many 
different positions in the National Park Service that you have 
had, can you speak about the importance of that dependability 
of funding, particularly for multi-year projects?
    Mr. Iobst. Yes, sir, thank you. My experience, and not just 
large construction projects, but also programs like the repair 
rehab program and cyclic maintenance program that are part of 
the National Park Service appropriate--when I, as a park 
manager and as a chief of facility management, knew what a 
multi-year program looked like, there is a certain amount of 
preparation to take place at the park and through centralized 
contracting offices with project managers to anticipate and 
even do pre-planning for certain projects.
    Therefore, the more successful programs in the National 
Park Service, based on my experience, are those where there is 
a known and reliable funding source well into the future.
    Mr. Grijalva. Yes. Do you have concerns, I mentioned two 
about the Administration's proposal to fund deferred 
maintenance. Do you have other concerns that you would like to 
address at this point?
    Mr. Iobst. If I may, I am very encouraged by the idea of a 
dependable, reliable funding source that is significant in 
dollars to address what is approaching a $12 billion backlog in 
the Park Service. I do have concerns regarding operating funds 
and the fact that diminishment of operating funds in the Fiscal 
Year 2018 and Fiscal Year 2019 budgets, as examples, do nothing 
more than contribute to that deferred maintenance backlog, 
because that is why we are in the condition we are, if you 
will, with annual funding and operational funding never meeting 
the need, just to keep that deferred maintenance backlog from 
growing.
    Mr. Grijalva. And a self-fulfilling prophecy, which I 
think, in the course of the budget reductions across this area 
in the last decade and a half, has contributed to that backlog. 
And no investment that we can see, other than a wish and a hope 
that energy production is so robust, so huge, that it begins to 
deal with deferred maintenance.
    I appreciate your answer, and I yield back.
    The Chairman. Thank you.
    Mr. McClintock.
    Mr. McClintock. Thank you, Mr. Chairman.
    Mr. Smith, what regulatory hurdles have you encountered in 
addressing these deferred maintenance needs?
    Mr. Smith. One more time, Congressman.
    Mr. McClintock. What regulatory hurdles have you 
encountered?
    Mr. Smith. Certainly in some of the ones that we do for our 
major projects, the Park Service, because of our historic 
buildings and because of the nature of our land holdings, we 
always have the National Environmental Policy Act to have to 
consider. And that is a process. The Secretary of the Interior 
has instructed us to streamline that process and not have it 
take years when we do environmental impacts.
    Mr. McClintock. Yes. I was going to say it is a big 
process. It goes on for many, many years, and runs up enormous 
costs. Does it not?
    Mr. Smith. Yes.
    Mr. McClintock. And how much does that add to our 
maintenance costs? This simply filling bureaucratic regulatory 
needs?
    Mr. Smith. It is certainly part of the cost.
    Mr. McClintock. How big a part? Would you hazard a guess?
    Mr. Smith. I would not want to hazard a guess, but it is 
certainly--just in time, to get these projects on line--and 
then certainly there is a dollar amount, but I would not----
    Mr. McClintock. Would you have your folks look into that 
and get back to this Committee? I would like to know. Of these 
$12 billion or so of deferred maintenance needs of the National 
Park Service, how much of it is the actual reconstruction of a 
bridge or repaving of a road, and how much of it is simply 
meeting all of these regulatory demands that we placed in your 
way.
    Mr. Smith. We will provide that for the record, 
Congressman.
    Mr. McClintock. I think that would be very enlightening for 
all of us.
    Mr. Rano, have we taken on too much public land? I am from 
California. We own 48 percent of California, 93 percent of my 
county of Alpine in the Sierra Nevada, 85 percent of the entire 
state of Nevada, 65 percent of Utah, 62 percent of Idaho and 
Alaska.
    A few years ago, Mr. Gohmert on this Committee compared the 
Federal Government to the old miser whose mansion is the city 
eyesore, the windows broken, paint peeling, weeds growing in 
the yard, because he spends all of his time and money plotting 
how to buy his neighbor's properties.
    What is your viewpoint on this?
    Mr. Rano. Thank you, Congressman. The Foundation does not 
have a stance or a view on new units or purchasing too much 
land. We are asked from time to time by the Department and the 
Service to support new units with philanthropic money, which we 
are happy to do.
    Mr. McClintock. But we can't take care of the land we have. 
And as I look at these numbers, it looks like we have an awful 
lot.
    Mr. Puskar, what are your views on the subject?
    Mr. Puskar. The Public Lands Alliance very much supports 
the fact that so many visitors want to experience these public 
lands. And there is a distinction, we think, between the amount 
of public land and what kind of built assets we need to create 
to make sure that the American public can really experience 
them.
    So, I absolutely believe that investing in roads so there 
is easier access to get into these places is----
    Mr. McClintock. We had the National Park Service Director 
here a few years ago. I asked him, ``What would be your 
preference, as far as prioritizing money, maintenance or 
acquiring new land?'' He said maintenance.
    Mr. Puskar. I think, given the substantial hurdles that 
exist for it, I would agree with him.
    Mr. McClintock. Mr. Puskar, I want to go on to another 
question, and that is that concessionaires seem to take care of 
their facilities much more efficiently than the land management 
agencies. Should we be looking at more concession contracts as 
a better way to manage campsites, trails, restrooms, and other 
facilities?
    Mr. Puskar. There are certainly many ways in which the 
private sector can be supportive of those kinds of efforts.
    Mr. McClintock. I am not talking about being supportive. I 
mean hiring to take care of the stuff that we can't take care 
of.
    Mr. Puskar. Absolutely. And there are many non-profits 
across the system, as well, through historic leasing 
agreements, that are able to provide similar kinds of changes 
to the maintenance, to rehabilitate and ensure that those 
places can be used by the public. Historic leasing is one of 
those areas we think the Park Service can expand its work.
    Mr. McClintock. Thank you.
    Mr. Rano, you mentioned record visitation of the national 
parks. But doesn't that include visits to Washington, DC 
memorials, and the like? If I walked down the Capitol Mall and 
I just drop in to see the Lincoln Memorial, the Washington 
Monument, the Vietnam Veterans Memorial, the Korean War 
Memorial, does that count as five visitations?
    Mr. Rano. It does.
    Mr. McClintock. Because I am killing an hour on the Mall.
    Mr. Rano. Yes, but also----
    Mr. McClintock. OK, what concerns me, though, is that 
number, I think, is very misleading. What is going to happen to 
overnight stays? It is the overnight stays that I think better 
represent the use of our national parks as planned destinations 
for visitors.
    The Chairman. You will get a chance to----
    Mr. McClintock. Up or down? Is it going up or going down?
    Mr. Rano. I don't have that number.
    The Chairman. OK. Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Mr. Smith, the 1978 Federal law that establishes the War in 
the Pacific National Historic Park directs the National Park 
Service to employ and train residents of Guam and the Northern 
Marianas Islands to develop, maintain, and administer the park. 
The directive reflects the fact that locally hired staff have 
less turnover, especially in remote but very important national 
park units like Guam's War in the Pacific National Park.
    Can you please speak to the National Park Service's efforts 
to meet this congressional directive? I have heard numerous 
complaints from my constituents that the National Park Service 
does not attempt to recruit Guam residents for staffing 
vacancies at the War in the Pacific National Historic Park. I 
have seen this, myself, so Mr. Smith, could you answer that?
    Mr. Smith. Yes, Delegate. I am not personally aware of the 
situation, but I certainly will look into it. With that kind of 
direction, and especially with the location of Guam, I don't 
know why we wouldn't consider residents of Guam for those 
positions. But sitting here today, I do not have a definitive 
answer on that.
    I will look into it. Again, with that congressional 
direction, we certainly will look to see what that situation is 
on Guam.
    Ms. Bordallo. Mr. Smith, can you then get that report back 
to my office?
    Mr. Smith. Yes, I will get something back to you very 
shortly.
    Ms. Bordallo. Thank you. I appreciate that. My next 
question is for Mr. Guertin.
    As this Committee examines how best to eliminate the 
maintenance backlog, we should also look at how agencies within 
the DOI budget for and prioritize projects.
    I understand that the Fish and Wildlife Service gives 
significant deference to its regions in how resources are 
allocated among the national wildlife refuge units during the 
annual budgeting process. My question to you is, some regions 
appear to link the amount budgeted for operations and 
maintenance to the number of full-time employees assigned to 
each refuge. This effectively short-changes refuges that are 
under-staffed, but have substantial needs.
    Mr. Guertin, can you please confirm whether Region 1, which 
includes the Pacific territories and Guam National Wildlife 
Refuge, engages in this budgeting practice?
    Mr. Guertin. Thank you for your question. We have about a 
$40 million allocation we ship out to the eight regions of the 
Fish and Wildlife Service for deferred maintenance. We tier 
those allocations off the Secretary's priorities of sportsmen's 
access, taking care of habitat, health and safety, and eroding 
the high-priority maintenance backlog as the national level 
drivers.
    There is some discretion given to the eight operating units 
at the regional level to sub-allocate, based on regional 
priorities. I am not completely aware of the specifics of your 
question on the specifics of Region 1. We would be glad to 
provide an update for you after the hearing and give you a more 
detailed answer on what happens between Portland, Oregon and 
the field station out there.
    Ms. Bordallo. Thank you. A quick question here. My concern 
is that linking budgeting to the number of full-time employees 
does not reflect accurately the unique maintenance public 
safety needs at our refuges.
    So, Mr. Guertin, will the Fish and Wildlife Service commit 
to make the Service's standard guidance for regional budgeting 
available to the members of this Committee?
    Mr. Guertin. Yes, we certainly will.
    Ms. Bordallo. All right, thank you.
    Mr. Chairman, I yield back.
    The Chairman. Will you yield for 1 second?
    Ms. Bordallo. Yes.
    The Chairman. Put 1 minute back out there. That is how much 
time you didn't use. I like the question you asked.
    Mr. Guertin, would you give her a direct answer? Is the 
number of employees a precondition or a condition that is used 
in allocation of the budget, which is what she was asking?
    Mr. Guertin. Yes, Mr. Chairman. I can fully brief you on 
what we do at the national level. I am not 100 percent 
personally confident of what happens at the regional level to 
drive their allocations. That is why I am asking if we can 
brief you back after I do the due diligence and research for 
the benefit of the leadership here.
    The Chairman. Thank you. That was a unique question. I 
appreciate you getting back with us on that answer.
    Ms. Bordallo. Please get back to us. It is important.
    Mr. Guertin. Yes, ma'am. You bet.
    The Chairman. Thank you.
    All right. We are done? Ms. Bordallo, you have more?
    Ms. Bordallo. I yield.
    The Chairman. We are done?
    OK. Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. And our witnesses, 
for your time and testimony today and expertise. Again, I will 
come back to Mr. Smith. I also wanted to follow up Mr. 
McClintock on NEPA.
    It is interesting. Some hearing meetings we hear the 
statements that NEPA never costs or delays any project that we 
are trying to do in this country. What kind of things do you 
see, Mr. Smith, when you are trying to renovate a building 
sometimes already existing in a park 50 or 60 or more years, 
what do you learn from having done the NEPA study about that 
renovation that causes a different effect than what you would 
have just done if you had just redone that piece of 
infrastructure, building a road, a trail, what have you?
    Does NEPA cause you to have to do different things to that 
infrastructure that you would not have done, had you just gone 
out and done it?
    Mr. Smith. NEPA can, depending on where the structure is 
and what you are doing.
    But in the case of historic buildings, we have to deal with 
Section 106 of the National Historic Preservation Act. And that 
is a shorter process, but it does require coordination with the 
state historic preservation officer, which then requires 
certain public hearings and that type of thing.
    Mr. LaMalfa. Is that a conflict?
    Mr. Smith. It is not a conflict. We have tremendous 
coordination with the state historic preservation officers.
    Mr. LaMalfa. I mean does it conflict with NEPA goals by 
having that goal? Does that mean you cannot restore 
historically, because NEPA is causing you to do something else?
    Mr. Smith. It doesn't prevent us, but you do go through the 
process to get to a final decision that you can take actions on 
buildings or roads. You do have those processes to consider.
    Mr. LaMalfa. And does that change the nature of building 
the road from its intention or from how it historically really 
was?
    Mr. Smith. No. Usually, it gets you to where you need to be 
to be accurate, as far as your historic preservation, or----
    Mr. LaMalfa. The NEPA process means you don't have to tear 
out a road, tear out a fence, tear out a building, or make it 
smaller, or something on that order?
    Mr. Smith. No, NEPA would not----
    Mr. LaMalfa. So, what do you actually learn from going 
through the NEPA process about restoring something that has 
already been there?
    Mr. Smith. Well, that is, again, more of the historic 
preservation process, rather than NEPA.
    Mr. LaMalfa. But you are still required to do a NEPA, which 
takes how long and how much cost? On average, who knows? It 
doesn't really matter right now for this Committee, other than 
it takes a lot of time and extra cost.
    What do you learn from going through a NEPA that really 
helps you in the process? See, to me, it seems like it just 
slows you down and helps the $12 billion, or whatever the 
number is, get larger, and the list get longer and older.
    Mr. Smith. In my experience as a superintendent, when I 
dealt with my historic buildings, it was with the National 
Historic Preservation Act, not so much NEPA. NEPA comes into 
effect on these big projects such as sewer systems and that 
type of thing that do affect the environment around the 
project.
    I may be slightly missing your context, Congressman. But 
those two Acts, the regulations from those, are used in 
determining what we do on projects within the parks. It is a 
process that does require time, but in the final analysis, we 
do get to answers.
    I will say again that Secretary Zinke has streamlined the 
process and we are now shortening our NEPA process. He is 
stating that we need to do those within a year, and we are 
moving to do those time frames.
    Mr. LaMalfa. And I appreciate he is doing that. He has been 
in place a little over a year. Has this process actually played 
out? Have you had a chance to do it in practice, and then not 
been sued over having a shortened process yet?
    Mr. Smith. There is always a chance to be sued, 
Congressman.
    Mr. LaMalfa. Have you been sued yet over the shortened 
process?
    Mr. Smith. To the best of my knowledge, we have not. And I 
have sent the guidance to the National Park Service, within the 
past 4 weeks that I have been in the Department, of our 
streamlining procedures.
    Some of that decision will be that we will go to 
environmental assessments, rather than full-blown EISs. In that 
case, you do sometimes leave yourself vulnerable for lawsuits. 
But if an EA is done properly, it cuts that time limit down 
dramatically, and you can get to the goals that we hope to get 
to and be sensitive to the environment.
    Mr. LaMalfa. I am short of time here. Let me ask. What is 
your inventory of dead or dying trees in your western states' 
parks, especially?
    Mr. Smith. I don't have a definitive answer on that, but it 
certainly is a problem in our national parks.
    Mr. LaMalfa. Would you believe that having a process where 
you could be thinning out and removing some of this material 
might make our parks safer? How many of your parks have been 
burned out in the last 15 or 20 years because of this?
    Mr. Smith. I can certainly provide that number for the 
Committee. And, yes, the Secretary again has sent instructions 
that we need to be looking at various ways to manage these 
lands and to remove that stored up fuel source in these parks 
to hopefully----
    Mr. LaMalfa. How bold are you willing to be to actually do 
something about it, instead of continuing to look at it?
    Mr. Smith. I believe we are moving to remove materials, not 
just look at it, under the Secretary's plan to take action on 
these parks.
    Mr. LaMalfa. Thank you.
    The Chairman. Thank you.
    Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman. Thanks all of you for 
being here.
    I really want to thank Deputy Director Smith for working 
with me and my office on the GW Parkway South, the speeding 
problems, the accident problems. All of our constituents are 
very grateful.
    Mr. Iobst, you write that a fee revenue is critical. But it 
can only be increased so much without becoming prohibitive, and 
even the recently proposed fee hike for the peak visiting 
seasons would address less than 1 percent of the National Park 
Service backlog.
    I am really concerned about the tripling of fees at a 
number of parks like Shenandoah National Park during peak 
season for two reasons. Number one, is the price elasticity of 
demand, are you actually going to raise more or less? And 
Number two, not only is it chasing away potential visitors, but 
the fact that places like Shenandoah are weekend retreats for 
local residents, rather than destinations like Yosemite or 
Yellowstone.
    I understand there is also a four-tier fee structure that 
the Park Service has in place. How much revenue will be 
generated for deferred maintenance if all the parks that are 
authorized to use the four-tier structure actually use it? And 
is this a better alternative than tripling the fees at places 
like Shenandoah?
    Mr. Iobst. Thank you very much for your question. Early in 
my career, I spent 2 years in Shenandoah National Park, so I am 
very familiar with that place.
    Mr. Beyer. Lots of bears.
    Mr. Iobst. And beautiful valley. So, I guess I would agree 
with your comments. My concern, both professionally and 
personally, is I don't know what the price point is. I am not 
sure if the National Park Service has ever studied what the 
price point is today versus 5 years ago versus, you know, 5, 10 
years into the future, with regard to appropriate fees for 
entry to the national parks.
    Again, my quick analysis that was performed for my 
testimony with regard to the current proposed doubling of fees 
in, I think, 17 parks in the Service during the 5-month or 7-
month--I can't remember whether it was 5 or 7--main visitor 
season, again, the amount of revenue that that would 
contribute, as I said in my testimony, was about 1 percent of 
what that backlog is.
    So, what is the cause and effect here? And what we don't 
know is who does that prohibit from coming to parks? I believe, 
personally and professionally, that it would prohibit some 
people from coming to parks. If you compare a trip to 
Disneyland or a movie and a pizza or whatever it is, I don't 
think those are very good comparisons.
    The fact of the matter is that the difference is that these 
were created mostly by the Congress. There is a responsibility 
through the appropriation process to properly fund these parks. 
What is before us is a significant effort in that direction. 
And my concern is that the intent may be good, but the effect 
of that may prevent those, especially from diverse parts of our 
Nation, from coming to our parks.
    Mr. Beyer. My concern is it is now $70 to take your family 
for a hike in Shenandoah Park.
    Mr. Iobst, again, you wrote and I am going to edit, ``we 
commend Senator Warner et al. for introducing the National Park 
Service Legacy Act. . . . The bill would dedicate more than $11 
billion to the parks backlog through receipts from onshore and 
offshore energy development not otherwise dedicated to other 
purposes.''
    Then a page later you talk about worrying about explicitly 
linking infrastructure funding to environmentally threatening 
and damaging energy production, et cetera. How do you link 
those two? And is there a danger of ramping up fossil fuel, 
ramping up the climate change, danger to the parks in putting 
those two together?
    Mr. Iobst. That is specifically the concern of the National 
Parks Conservation Association, who I represent, that the 
interest in energy development, how close is that going to be 
to public lands. And then how much of it takes place on public 
lands? Certainly there are public lands where oil and gas 
development and coal mining and other mineral extraction take 
place.
    The concern is how much of that is directly related to 
damaging air quality, water quality, scenic vistas in as well 
as out of national parks, specifically, to other public lands. 
In other words, at what cost to the environment, to the quality 
of life, would that increased extraction cause in order to fund 
the deferred maintenance backlog? And that is a concern.
    Mr. Beyer. Thank you.
    Mr. Guertin, a very short answer. I will not ask my whole 
question. Elephant importation. You changed your mind from 
where the President was. What is the current state in Zimbabwe, 
Zambia?
    Mr. Guertin. Congressman, we are continuing to work with 
the White House and DOI political leadership on a new vision to 
govern the importation of all sport-hunted trophies. We have 
announced--should I keep going, sir?
    The Chairman. No. You are right to stop. Give them time to 
get the answers in.
    Mr. Westerman.
    Mr. Westerman. Thank you, Mr. Chairman. Thank you to the 
witnesses for being here today. I am from Hot Springs, 
Arkansas, where Hot Springs National Park is located. Some 
people may not realize, but the thermal waters there were 
discovered in the 1500s by DeSoto and had been used, estimated, 
thousands of years before by indigenous peoples. The park was 
first set aside in 1832 by an Act of Congress, before Arkansas 
was even a state, and long before the National Park System was 
ever in existence. So, there is a long history of recreation 
and protection there in the thermal waters of Hot Springs.
    In the 1800s, spring baseball was invented in Hot Springs 
National Park because the baseball teams came there to take the 
waters, as they would say, and they started doing spring 
practice. It was a very popular tourist destination for a long 
time. But as time went on, less people used the park, and there 
were these magnificent bathhouses there that began to sit idle.
    So, in Hot Springs the Park Service started doing these 
long-term leases. It was a pretty innovative process that they 
developed there, where they would do the lease and, instead of 
the Park Service having to keep these historic buildings 
maintained and keep the heating and cooling on the building, 
they would get tenants that would come in and remove that 
maintenance cost, but also generate a little bit of income 
through the lease, and also create a lot of economic develop 
there, with tourists coming in.
    They even have now, it is the only one in the Park Service 
that has a brewery that uses the thermal waters to make beer in 
one of the bathhouses. Pretty creative and innovative.
    Mr. Smith, are historic property leasing contracts like the 
ones going on in Hot Springs an innovative method for 
addressing Interior maintenance backlog?
    Mr. Smith. Congressman, I believe so. And I dealt with 
those bathhouses back as far as the 1980s, when I was at the 
Department. So, I am familiar with that unbelievable history at 
Hot Springs.
    Historic leasing is certainly something in the Park Service 
that we have in policy. Each one is a case-by-case. For me to 
hear that you have one that is very successful and very 
innovative is certainly the way that the Agency is moving. I 
don't know what the rest of your question is, except that that 
is a very positive sign.
    Historic leases are difficult in some ways because of the 
investment that we require for those properties. And if you 
have gotten over that hump, then obviously it is something that 
we should look at in other areas.
    Mr. Westerman. Yes. Out of all the bathhouses there, there 
is only one that is not currently in use or under lease. They 
just created a new lease to make a boutique hotel and a 
destination getaway in one of the bathhouses.
    But my question is are there other places in the Department 
of the Interior where leases are being utilized like that, or 
where they could be used to remove some of the maintenance 
backlog?
    Mr. Smith. There certainly are. Right now none come to my 
mind, but I could certainly provide those for the record. And 
we do look for those. They are not as easy in some areas as 
others, because of the amount that is required to go in and 
take over those properties. But in dealing with some of our 
non-profits and some of our other people who have testified 
today, those are the innovative ways to now address these 
problems through historic leasing.
    Mr. Westerman. Yes, I know that in Hot Springs the 
maintenance backlog is about $12 to $13 million, and most of 
that is in roadways. From looking at the data, I believe across 
the national parks, well over half of the maintenance backlog 
is in roadways.
    We have already talked about private-public partnerships, 
the issues that you face trying to get private donors to fund 
roadways or sewer systems or other parts of the infrastructure 
that are critical, but might not look quite as good in an 
advertisement to say you supported that.
    I am running out of time, but as far as the roadways, are 
we seeing more and more transportation systems degrading, or is 
there any kind of improvement? Have you been able to stabilize 
that over the years?
    Mr. Smith. We certainly have degrading systems. I believe 
that about 5,000 of our 70,000 roads are in deferred 
maintenance at this time.
    The Chairman. Thank you.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman. I think the 
oversight hearing exploring innovative solutions to reduce the 
Department of the Interior's maintenance backlog on our parks 
and our recreational facilities throughout the country is 
appropriate. And I think we all know what the challenge is.
    This backlog has not happened yesterday or the day before. 
It has accumulated over decades. And when we look at just the 
National Park Service, we are talking about 417 units covering 
more than 84 million acres. The deferral backlog there is $11 
billion of the $16 billion in totality that there is estimated 
to be when we include all of the other refuges, wetlands, and 
special management areas that are a part of Interior's overall 
responsibility.
    I have been one of those that has been critical of the 
Secretary's proposal to simply try to deal, at least with a 
part of this backlog, through increase in fees for parks across 
the country, or some of the major parks, because I think that 
is an uneven way to handle it, and does not really get to the 
heart of the problem. And it certainly, I think, creates 
tremendous disadvantages for Americans who want to enjoy their 
parks, whether people are going for a destination vacation, or 
whether people are nearby.
    Let me use, as an example, one of the glamour parks, for 
lack of a better term, but certainly one of America's great 
national parks, Yosemite, that is in my backyard. Yosemite's 
maintenance backlog is estimated to be over $550 million. A lot 
of us who are in the area like to think it is our park. But 
King's Canyon is also a part of that, as well.
    They have a maintenance backlog of buildings, $107 million; 
campgrounds, $4 million; housing, $16 million; paid roads, 
which is access to the park, $269 million is the single largest 
deferred; $17 million in trails; $3 million in unpaved roads; 
$73 million in water systems. So, you add it all up, it is $555 
million.
    Because it is a legacy park, and because it has an 
international reputation as well as a national reputation, 
there is a lot of support. The Yosemite Conservation 
Foundation, that I support, and many other people have raised 
over $100 million in recent years. That $100 million 
distributed about $6 to $10 million annually. And they get 
about $20 million in donations because it is such a high legacy 
park and there is a lot of attraction to it. But private sector 
donations literally by itself is not enough to deal with $555 
million in backlog.
    So, I think we have to look at some other areas that 
provide support for not only the high profile parks in this 
country that get the most amount of usage, but also all of the 
other park units, and wetlands, and other areas. I think the 
National Park Service Legacy Act that Congressman Will Hurd has 
that is a bipartisan bill, one that I am a co-sponsor, that is 
a companion measure to the Warner bill on the Senate side, is 
the way to do it. It would provide $11 billion over 30 years to 
address maintenance backlog through receipts of offshore and 
onshore energy development already dedicated to other important 
purposes, like the Land and Water Conservation Fund.
    I think this is an area that we can and should have 
bipartisan support, unlike other issues in this Committee, 
where we tend to have a more partisan perspective. The fact of 
the matter is that so many of our national parks throughout the 
country need the support.
    This money, that would be generated over a period of time, 
would provide backlog for transportation projects that Congress 
needs. We also need to look at challenges to the Highway Trust 
Fund. For many of these parks, the challenge is access. So, I 
think that we can and should do something about this, not just 
for our legacy parks, but the other units.
    So, I would hope, Mr. Chairman, that we could kind of focus 
our time on a bipartisan bill that could provide real money to 
do this. Certainly I think raising the fees is not the answer 
to addressing this issue. I yield back the balance of my time.
    The Chairman. Thank you. We will have a bipartisan bill. 
Just keep doing what I tell you to do, and everything is OK.
    [Laughter.]
    The Chairman. Mr. Thompson.
    Mr. Thompson. Thank you, Chairman. Thanks, members of the 
panel, for being here. A very important topic, dealing with our 
maintenance backlog.
    Mr. Smith, there is a 2016 Government Accountability Office 
(GAO) report on the National Park Service asset maintenance 
prioritization. And it noted that ``the Park Service does not 
have a plan or time frame for evaluating whether the capital 
investment strategy has been successful.''
    Has the National Park Service leadership made efforts to 
examine the strategy since the study's release, to ensure that 
taxpayer dollars were being directed in the most effective and 
efficient manner regarding deferred maintenance?
    Mr. Smith. Congressman, yes. I have been briefed in my 
short time back that we are looking at the actual management 
system, managing the assets to really make that process make 
more sense to the field, to get numbers that we actually can 
rely on.
    Then, through the capital investment strategy, we are 
looking at ways to make that more transparent to where we are 
actually putting our assets. And that is a ground-up type of 
review. It is not top-down.
    Mr. Thompson. Very good. Well, I wanted to follow up on the 
capital investment strategy. It doesn't seem like it has been 
successful, or maybe just minimally so, because the deferred 
maintenance backlog has grown by almost $2 billion over the 
past decade.
    Do you think the capital investment strategy is successful? 
And if so, what are your measures of success?
    Mr. Smith. The last 4 years especially, Congressman, the 
deferred maintenance is, basically we are keeping it level. I 
hope Congress realizes we will never get to zero on deferred 
maintenance. But it would be very important to get it down to a 
much lower number in the billions of dollars.
    Again, being back just this short time, I probably need to 
get more information on the strategy, and I certainly will 
provide that to the Committee.
    Mr. Thompson. As we have seen, the National Park Service 
has certainly been particularly popular in the past few years, 
which is great. Has the Park Service taken any steps to 
leverage this newfound interest, and create new streams of 
revenue to help with addressing some of the backlog issues?
    Mr. Smith. You have heard from our partners that have 
appeared today as witnesses that those efforts--obviously, the 
Secretary is looking at fees, we do have a fee structure, and 
he is coming at it in a different angle. We are working with 
him on options to look at the best way.
    But the fee structure, whether you deal with it on a local 
level or a state level, fees are part of what you do to keep 
these areas that are so important to people available. And the 
fee structure that we have in the Park Service has been an 
important element in that.
    I believe last year it was $318 million that was derived 
from that system. I remember in the mid-1980s, we actually 
endeavored to come to Congress to establish a fee program, so 
it has been tremendously successful in generating those funds.
    What is before the Committee today in concept with this new 
infrastructure fund is a way to look at this. And we hope that, 
in coordination and cooperation with the Committee, we will get 
to a bill that will provide this type of funding for deferred 
maintenance. We don't have all the answers, but we are trying 
to find solutions.
    Mr. Thompson. Thank you.
    Mr. Guertin, thanks for testifying before the Committee. I 
appreciate your kind of focus, your emphasis on collaborative 
efforts. I have always believed one-size-fits-all solutions 
rarely work. And in this case, Federal funding is certainly 
necessary to help eliminate the Department's backlog, but it is 
not the final and only solution.
    You had mentioned a number of collaborative efforts between 
the Department and outside organizations that have created 
opportunities to improve Federal lands. How can we create more 
of these opportunities, moving forward, and leverage the 
Federal dollars with local, with non-profits, with all the 
different places that we see when we do collaboration?
    Mr. Guertin. Thank you for your question, Congressman. 
Secretary Zinke is really stressing the idea of conservation 
without conflict and collaborating across landscapes in 
developing a shared vision amongst the partners. Certainly that 
drives the Fish and Wildlife Service, our refuge system 
hatcheries and our other Federal agencies to partner with 
groups like these, the private sector, the all-important 
relationship with the state fish and game agencies and the 
state parks departments and the other Federal agencies to 
develop this shared vision, go after these bundled or larger 
program implementation schemes, and leverage all of our dollars 
against these shared objectives.
    Mr. Thompson. Thank you.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. My question is to 
Steven, is it Iobst?
    Mr. Iobst, thank you, first of all, for your 43 years of 
service to the Park Service. I would like to ask you. Can you 
distinguish between yearly maintenance and deferred 
maintenance? At what point does it become deferred maintenance? 
And what is the problem? Is the problem the way the National 
Park Service looks at maintenance, is it that we have this huge 
deferred maintenance backlog, and we are meeting our yearly 
maintenance requirements?
    Mr. Iobst. Thank you for the question. I should also say, 
and I said earlier, thank you very much for your support of the 
National Park Service Legacy Act.
    Ms. Hanabusa. Thank you.
    Mr. Iobst. The deferred maintenance begins on a facility, 
whether it is a road or a trail, the day it is constructed. It 
is man-made or human-made, and if the funding is not there year 
after year to do the routine maintenance, replace critical 
components, re-roof buildings, re-paint, do renovations and 
restoration, as necessary, on buildings that are maintained 
into perpetuity, which is our mission, then there becomes this 
gap between annualized funding, if you will, through 
appropriations, donations, and other fund sources, and the real 
need, so that every year that--40 percent in Yellowstone--my 
experience in Yellowstone was annual funding or routine 
maintenance funding met about 40 percent of the need that was 
determined by the park asset management planning process, which 
is a very reliable process of understanding what the need is. 
That gap will grow every year, because your 40 percent, 40 
percent of the 100 percent that is necessary.
    Ms. Hanabusa. So, in other words, 60 percent every year is 
falling into this category called deferred maintenance.
    Mr. Iobst. Yes, that is a simplistic way to look at it, 
ma'am, but yes, that is essentially what is happening.
    Ms. Hanabusa. And when we introduced the legacy fund, our 
intent was to figure out some independent funding source that 
would sort of assist in making up the difference, because 
clearly the annual appropriations are not going to do it. And 
even if we try to get some sort of partnership, that is not 
going to do it, because that amount is a huge amount.
    What would you say is the deferred maintenance now at 
Yellowstone? You said about $400-something million?
    Mr. Iobst. It is close to half-a-billion dollars.
    Ms. Hanabusa. Half a billion? And the total amount for the 
whole Park Service is amounting to what? How much would you 
say?
    Mr. Iobst. The report that came out in I think it was late 
January or February of this year for 2017 puts it at about 
$11.6 billion, service-wide.
    Ms. Hanabusa. Do you know how the National Park Service 
prioritizes who will get the funds?
    Mr. Iobst. Well, there was never enough for Yellowstone.
    [Laughter.]
    Ms. Hanabusa. Of course, I expected you to say that.
    Mr. Iobst. Or other parks I worked at.
    Yes, I do understand. And there are different fund sources. 
There is the operation of the National Park System, which 
includes, with regard to routine maintenance dollars, repair, 
rehab, other programs that are an annual appropriation, those 
are somewhat based on history, if you will.
    However, our science, as I call it, for facilities, the 
asset management plans, the system that we have used for a 
number of years, it generates priorities based on how important 
that asset, whether it is a road or historic structure, 
concession operated facility, is to the significance of that 
park, and how it serves visitors.
    So, the assets are prioritized and then, depending on the 
size of the project that is necessary, there is a competition 
that takes place. However, it is based on need, and it is park 
need, and then against the needs of other parks in that region 
and then, ultimately, against all the parks in the system.
    Ms. Hanabusa. So, would it be a correct statement to say 
that a popular park, which is used more than another esoteric 
park, for example, would probably get the maintenance funds 
before that park that is not in such a demand?
    Mr. Iobst. No, that is not true. It depends on the 
significance of the asset.
    Ms. Hanabusa. Thank you very much. And I hope you call upon 
your, I think it is about 1.2 million, members of the National 
Park Conservation Association to assist us with getting the 
legacy fund bill through. Thank you very much and I yield back.
    The Chairman. Mr. Bergman.
    Mr. Bergman. Thank you, Mr. Chairman. And thanks to all of 
you for being here. You learn never say always and never say 
never, because Murphy will make a liar out of you real quickly. 
I saw a flag quilt downstairs in the Capitol a month ago that 
said, ``Freedom is always worth fighting for.'' So, I have 
changed my mind on there is one always.
    In addition to the Natural Resources Committee, why I bring 
that up at this point is I also serve on Veterans Affairs. As a 
veteran, honoring our military service members' sacrifices to 
our country is very important, not only to me, but to all of 
us, and I know you, as well.
    More than one-third of our national parks commemorate and 
interpret military history. These parks have roughly $6.2 
billion--with a B--in deferred maintenance, roughly half of the 
total backlog, I understand. In addition to these military 
heritage parks, parks in general offer places of restoration 
and of healing to our returning vets of all ages.
    Mr. Smith, what is the Department's plan to ensure that 
these park sites are in good repair and honor the memory and 
the service of our veterans, and still provide a place of 
positive refuge for them when they seek it?
    Mr. Smith. Congressman, as a veteran and the son of a 
veteran, I would certainly associate myself with your remarks. 
And, as you know, part of those units that you are talking 
about came to us in the 1930s, all the national cemeteries came 
to us, the battlefields came from other departments. Those are 
certainly in line with our operations of the National Park 
System, all of those parks certainly are in that mix for annual 
funding.
    We also, for the Civil War parks, we have wonderful 
partners, Civil War Trust, who is out there, working with us on 
land issues at those parks, and bringing money outside the 
government to take care of preserving those types of areas that 
you have mentioned.
    I must admit that I have never heard that breakout that you 
just gave, of there being that many of the units of the 
National Park System that have that theme. But I believe we are 
very responsive in those historic areas to make sure that we 
tell that history, from the Mall here, with all of the 
monuments that have been built, to the battlefields around the 
country, such as Gettysburg or Manassas.
    Mr. Bergman. Thank you. This is a question for any or all 
of you to respond to. When you have deferred maintenance you 
are probably going to have a combination of materials, whether 
it be things like asphalt or gravel or fertilizer or building 
materials, whatever, but something that is a physical material 
that you have to purchase or grow or whatever, and you are 
going to have labor. And you may have a third cost in your 
equation.
    In your numbers, is there a breakdown of half of it is 
labor, half of it is materials, 70 percent, whatever? Anybody? 
Could you give me an idea of what the breakdown of that money 
is?
    Mr. Iobst. I would be happy to answer that question. It is 
a field-driven system of need and project that is based on the 
very simple work order. It can be a whole building or a 
component of a building. Within that work order are estimated 
costs for labor, for materials. There are equipment costs. 
Different specialized equipment may be necessary on that 
project. There is a breakdown on the individual work order or 
activity or specific project that then works its way up through 
the system, so that that information is provided on any 
specific project.
    Mr. Bergman. Let me ask you a question. Are these contracts 
let to a vendor to perform the work that includes the labor and 
the materials in it? Or do you purchase separately? In other 
words, let's say if there was not enough money to go around, 
and we know there is not enough money to go around. OK? 
Materials you have to have. Wherever you buy them, hopefully, 
best practices are going to get you the best quantity, price. 
But labor could come from different sources.
    Are we able to do that, if we got money and said, OK, we 
are going to put it all in materials, but oh, by the way, here 
is what we are going to do with labor. Have you done that 
before? Or have you considered that?
    Mr. Iobst. We have done projects like that, based on my 
experience, where it may all be contract, where all the costs 
are covered by a contract, whether certain overhead costs and 
things like that.
    However, there have been projects where government has 
supplied----
    Mr. Bergman. I see my time has expired, Mr. Chairman. I 
yield back. Thank you.
    The Chairman. Mr. Soto.
    Mr. Soto. Thank you, Mr. Chairman.
    Director Guertin, we have a relocation permit in Winter 
Haven, Florida for the sand skink. The initial approval has 
been approved, but there has been quite a delay in getting the 
publication. This is in an area, a socio-economically depressed 
status that, we have a community center. So, I hope that your 
office can look into that for us.
    Mr. Guertin. Thank you for your question, Congressman. I am 
aware of this project. We have been working very closely with 
the municipal government. We have allowed them to move forward 
with about 98 percent of the footprint of the entire project 
period to work on construction. We have asked them to buffer 
about 2 percent for the skink population down there.
    We are required to go through some additional steps, 
including a 30-day public comment period, but this is an 
enormous priority for our office down there, the region. And 
from the Director's Office we will keep it pedal to the metal, 
and check back with your office with further progress updates.
    Mr. Soto. Thank you. This is an important project in our 
district.
    I wanted to also reach out about the status of the Florida 
manatees. What is the current endangered status? Is it 
threatened now? And is there any additional movement that we 
may see on the Florida manatee?
    Mr. Guertin. We have downgraded them, Congressman, to a 
threatened status. This is a success story, working in 
partnership with the Florida Game and Fish Commission, with the 
recreational boating community, and with a lot of the youth 
groups and other industry and community groups down there who 
are all very interested in the ongoing status of manatee 
populations. They are a beloved animal in Florida and the rest 
of the country, and we are all very hopeful that we can 
ultimately move toward recovery of that species.
    But I come back to, this is an enormous partnership effort 
and a shared vision with the great people of Florida and 
recreational boaters out there.
    Mr. Soto. I just want to express my concern of shifting it 
further than that, because we have a large shift in population 
based upon if we have a cold winter. We could have hundreds of 
Florida manatee die, so I just want you to be aware of the 
erratic nature of the population there.
    Mr. Guertin. Yes, sir. And a lot of that is contingent on 
how they over-winter each year. Disease comes in, red tide, 
other external impacts. But the proactive nature of 
conservation, of everybody pulling together toward this shared 
objective is really helping all of us keep an eye on the fate 
of this beloved species.
    Mr. Soto. I also wanted to reach out about the Florida 
panther. I know there have been ample studies in Florida 
universities about how this is a subspecies and warrants 
protection. And right now it is protected. Is there any push to 
try to change that now or in the near future?
    Mr. Guertin. We are currently just evaluating the status of 
the species throughout Florida. My wife is from Okeechobee, 
Florida, so I am pretty familiar with a lot of those animals 
and habitat down there. But we are a science-driven agency, 
sir. We are working very closely with State Fish and Game to 
keep an eye on an ultimate path toward recovery. A lot of this 
is going to be corridors for them to move from safe zones to 
others. We also have a lot of potential conflict issues we have 
to work with: agriculture, landowners, and even homeowners and 
pets. But we are working very closely with our state 
counterparts on that front, sir.
    Mr. Soto. And we are certainly sensitive to the balance. We 
just want to make sure it is no longer deemed a subspecies when 
there is ample scientific basis from some of our local 
universities.
    I next want to turn to what Congressman Beyer started 
talking about, the trophies of African elephants from Zimbabwe 
and Zambia. As you know, there has been a 30 percent decline in 
the African elephant population from 2007 to 2014. And I see, 
in the case-by-case, this is going to be ESA findings and 
scientific-based assessment.
    My question is, when do you make an assessment for the 
whole species, rather than an individual elephant basis, since 
all of them would be in a similar risk? How would it work with 
a case-by-case assessment?
    Mr. Guertin. Sure, Congressman. We had a response to a 
recent D.C. Circuit Court opinion, and we are trying to balance 
the mandates of that opinion with our responsibilities. We are 
revising our procedures and assessing applications for these 
findings on an application-by-application basis, rather than on 
a country-wide basis. We are always willing to be driven by the 
science, the larger status of these species.
    This comes back to the larger argument--what role does 
hunting play in species conservation? What role does the 
dollars sportsmen invest in guides, permits, outfitters, the 
rates that they are paying----
    Mr. Soto. Would elephants in each of these countries be 
equally at risk?
    Mr. Guertin. We have to take a look at the larger trends 
and the dynamics of management and the specific threats in each 
of those. It is not a common set of threats across the entire 
range of their distribution. Some countries have stronger 
frameworks, higher hunting culture. Others have more poaching.
    Sorry, sir.
    The Chairman. That is OK.
    Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman.
    Director Smith, let me just begin with you. In 2001, when 
President Bush came to office, the National Park Service had a 
backlog of roughly $4.9 billion. And from our research, that 
backlog appears to have increased by about $2 billion 
throughout his presidency, and about the same throughout 
Obama's administration.
    So, the question is why. Why the backlog? Would you 
attribute it for maintenance primarily to the Park Service 
increasing its assets, and the public lands, monuments, that 
you have a bigger footprint now? Or is it due to aging, the 
aging process, or some other reason, or all of the above?
    Mr. Smith. Congressman, it is basically both of those. When 
you have a system that is aging like ours, and the fact that 
Congress keeps adding to our system, those are all factors that 
either affect operational budgets, which affect cyclic 
maintenance, or they affect deferred maintenance in these units 
when you have as many assets as we have to deal with.
    Dr. Hice. OK. As I understand, you have--well, a general 
rule of thumb, I think, for most homeowners and so forth, is 
about 1\1/2\ percent of the value of the home to be set aside 
for annual maintenance and that type of thing. Of course, the 
older it gets, then it goes up anywhere from 3 to 5 percent.
    As I understand, you are close to that range. Do you have 
enough now to take care of the backlog issues?
    Mr. Smith. No, we certainly do not at this time. That is 
why we are here looking at other possibilities of funding, to 
reach back and take care of that deferred maintenance.
    Dr. Hice. What percentage of the overall infrastructure 
portfolio is needed, based on the value of the assets? Do you 
have any idea?
    Mr. Smith. We are somewhere between 40 and 45 percent of 
our assets that are in deferred maintenance right now, with 
others catching up to that.
    And we touched on, in one of the questions today, the 
difference between cyclic maintenance and deferred maintenance. 
A perfect example would be, we have done cyclic maintenance on 
a huge HVAC system. It eventually will have a life cycle, and 
then it will have to be replaced. So, it moves from where you 
can deal with it in cyclic maintenance. You have to deal with 
it by replacing it, and that becomes a deferred maintenance 
issue.
    Dr. Hice. Tell me again what that 40, 45 percent is.
    Mr. Smith. Half of it is roads, bridges, things to do with 
our transportation systems. I think our latest number on that 
is $5.9 billion of the $11.6 billion is dealing with roads and 
bridges. The other would be dealing with our assets, which 
would include buildings, campgrounds, trails, all of the above 
that we----
    Dr. Hice. That 45 percent, though, would be 45 percent of 
the total assets?
    Mr. Smith. Yes.
    Dr. Hice. That are in backlog?
    Mr. Smith. Yes, and especially those that are aging. For 
those of you who cross Memorial Bridge every day, if you come 
from Virginia, that is a 75-year-old bridge, and it needs to be 
replaced.
    Dr. Hice. All right. Assuming that we arrive at some sort 
of solution, how do you assure this Committee and the American 
people that we don't get in this mess again?
    Mr. Smith. There will always be some deferred maintenance, 
because of all the assets that we have. But certainly, once we 
are on top of it, it will help us prioritize much more of those 
things that are aging, or those things that we need to take 
care of. But it will never be a zero, as far as deferred 
maintenance, just because we have so many assets that annually 
go into meeting some type of maintenance.
    Dr. Hice. Well, I understand that. But how can you assure 
us that we are not going to get in another situation where we 
have 45 percent in a backlog of maintenance issues?
    Mr. Smith. Well, I can assure you that if we can find 
steady funding sources, we will tackle this issue, which has 
been around since the 1980s, and which we have not caught up 
to.
    One reason why we have so many more exact numbers on what 
the backlog is is that during the Bush administration we 
developed the process that we now use to ascertain all of these 
numbers. So, the issue probably was bigger than we knew back 
then. We now have a system of looking at these assets that 
really gives us these numbers that we brought before Congress 
that need to be addressed.
    Dr. Hice. OK. Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman. I am pleased to 
represent a district that has two national parks: Arches and 
Canyonlands. And if you haven't been to Arches, this is my 
formal invitation to have you come personally visit.
    We are here to talk about creative solutions to some of 
these funding problems. Mr. Smith, at Arches, you may be 
familiar, we have a unique problem where we are loving our 
parks to death. And on site they are looking at one possible 
solution, which is a reservation system. That is meeting with 
quite a bit of angst in the community, from an economic 
development, there are many layers.
    If we have long lines of people waiting to pay fees to 
enter these parks, which we need, can we spend a little bit 
more time in this creative mode seeing how we can accommodate 
the visitors into the park, without it being an overload? And 
that is what the locals are asking. Have we looked at enough 
solutions?
    I don't know how personally familiar you are with that 
particular issue. If you are not, I would love to invite you to 
get involved. And I am not sure, I was just down there this 
last weekend, the locals clearly don't feel like we have 
explored all the options. Do you have any comments on that, or 
are you close enough to that to know?
    Mr. Smith. Two things, Congressman. Thank you for your 
question. When I worked on staff here for Congressman Hanson, I 
certainly visited Red Rock country. So, I am very familiar with 
all of your wonderful parks, not only in your district, but in 
the state of Utah.
    Mr. Curtis. Right.
    Mr. Smith. We are looking at reservation systems as one 
answer to where we have so much visitation. I don't know the 
particulars of what we looked at at Arches, but I definitely 
will look at that when I get back. But we have the situation in 
Yosemite, we have the situation in other parks, and we are 
trying to make it so that our visitors are accommodated without 
the long waits and that type of thing which ruin their 
experience.
    But I will look into that situation, Congressman, and get 
back to you on that.
    Mr. Curtis. Thank you. There are good models. Zion is not 
perfect, but they, of course, accommodate a lot more because of 
their transportation system there. The locals on the ground 
would have us look at another mode of entrance into the park. 
There is a high percentage of that park that is not visited 
because of access, so thank you for your willingness to do 
that.
    I also might mention I had the delight to serve as the 
mayor of my city before Congress, and dealt with a lot of these 
maintenance issues and not enough funds and that constant 
battle which you all are experiencing. And I learned and found 
that there are different types of different maintenance. A 
parking lot that doesn't get a crack and seal becomes a far 
more expensive repair if we don't spend that money now, versus 
other projects. Does your system take that into account? And is 
there a factor that you are applying to things that actually 
cost us more money if we don't address them right now?
    Mr. Smith. Yes, it does. And those are driven from the park 
up, not from anywhere above down, but they are taken in 
priority in each park.
    Then, as far as the funding, it does have to go through a 
process with the region to look back at what we are doing. The 
need is so great, and the money is such that we have to make 
priority decisions in the parks, and that occurs every year as 
we look at our budgets.
    Mr. Curtis. Let me go back to that bottom up, because I 
also would applaud that, and found once again, as mayor, that 
generally, those that were right there knew the most. How much 
input do they have on the park level that is coming up and 
being filtered and listened to?
    Mr. Smith. Well, they have a lot. And I have let it be 
known that I have come back to Washington after retiring for 3 
years, that I am coming back with a superintendent's hat, and 
not a Washington bureaucratic hat. I have said I don't know how 
long that will last, but it is my intent right now.
    The parks are listened to. And I will certainly, serving as 
Deputy Director, will make sure that they are listened to, 
because they do know what is happening on the ground more than 
we do here in Washington.
    Mr. Curtis. Thank you. If you attempted to remove that hat, 
I am sure we will help remind you how important that philosophy 
is. I appreciate that.
    Mr. Smith. And Congressman, the Secretary of the Interior 
will remind me of that, too. He wants us to deal with all these 
issues from the front, in the parks, and he has made that very 
clear to me.
    Mr. Curtis. Yes, I applaud that. Thank you.
    I yield my time, Mr. Chairman.
    The Chairman. Thank you. Let me ask a couple of questions, 
if I could. Let me start with Mr. Guertin.
    The Administration's proposed public lands infrastructure 
funding includes your agency, the Park Service, as well as the 
Bureau of Indian Education. Can you speak to why the five other 
departments within Interior were not included in that, 
specifically BLM, which has 245 million acres?
    Mr. Guertin. Yes, Mr. Chairman. My understanding is that 
the three agencies selected for the initial deployment of the 
Act, if it is enacted by the Congress, are largely those 
aligned around the Secretary's initial guidance to us to 
promote the outdoor recreation, the access areas, the parks and 
refuges, get a preponderance of the visitation, get a 
preponderance of the visiting public.
    The other Interior agencies were not ranked as high in that 
initial cut of which agencies to propose, going forward. But it 
comes back to the role the Service and Park Service play in 
outdoor recreation and access. And for the Bureau of Indian 
Affairs, the needs are very dire there for societal reasons, as 
well as health and safety in the schools, and programs like 
that.
    The Chairman. Not a whole lot of visitation in those 
schools. We will look at that again one time.
    Mr. Rano, if I could talk to you, I appreciated working 
with you on the Centennial Act. I am assuming that you accept 
that those proposals so far have been successful?
    Mr. Rano. Absolutely, sir.
    The Chairman. Are there any additional revenue sources that 
we didn't make into that bill that you believe we should be 
considering as a Committee?
    Mr. Rano. Absolutely. There is a proposal in the bill--and 
thank you again for your leadership in ensuring its passage--
that would have dedicated money, another dedicated revenue 
stream of overnight fees in lodging in National Park Service 
lodges. And we believe there is an opportunity to revisit that 
at this point.
    I think we ran out of time and lacked consensus, and I 
think there is an opportunity to revisit that and make it fair 
and bring on all parties.
    The Chairman. There may be some other areas we can look at 
for all these purposes, even for BLM purposes, so we can reach 
some of the maintenance.
    Both Mr. Costa and Mr. Beyer were talking about fees. I 
think there is some point where we need to talk about fees to 
make sure those fees are going back to the areas in which they 
are generated and we are not having a lot of that fee money 
being used elsewhere, or coming back here to Washington.
    I think we need to look at--there are a lot of groups out 
there that actually make a whole lot of money on the using of 
our public lands, but put very little back into the maintenance 
of those public lands. Maybe we should be looking at some 
innovative ways of doing that, at the same time.
    Also, some of the Members have brought up some other 
issues. Mr. Smith, let me ask you. Are there other areas that 
we should be talking about to you that are an impediment to 
prioritizing your efforts or tackling this backlog that 
prohibit you from having greater efficiency and effectiveness?
    Mr. Smith. Mr. Chairman, thank you for that question. One 
that comes to mind immediately in my short time back is 
concessions policy. I actually dealt with it on this Committee 
back in 1998, when we passed the Concessions Policy Act.
    There seems to be, because of the need for infrastructure 
at such high dollar amounts, that if the 20-year limit could be 
raised to 30, we would have a lot more success in the 
concessions type of contracts. That one would require an Act of 
Congress, and that one comes to mind immediately in my short 
time back because it has come up in situations all over the 
country already. So, that is one that I am certainly familiar 
with.
    The Chairman. I know Congress sometimes, in our effort to 
be helpful and effective--for example, the McKinney-Vento Act 
requires that any time you have any kind of change into a 
housing or building structure, that you have to ensure that you 
do a study to see if they are suitable for homeless facilities. 
That is a cost that probably has very little value to it. 
Sounded good at the time. But we need to look at some of those 
practices that are impeding efforts to go into it.
    I know people have said that we don't need innovation and 
that these are gimmicks. But what the Administration is 
proposing here is definitely more than that. We are trying to 
look at some kind of permanent fund that goes through there.
    Mr. Guertin, maybe I could ask you the same thing. Are 
there things other than just the revenue that we are talking 
about that streamline that cumbersome process of Federal 
acquisition or contracting, hiring, or planning?
    Mr. Guertin. Thank you for the question, Mr. Chairman. We 
have requested similar authority to the National Park System, 
where we can collect and keep any damages that come from some 
of the vandalizing, destroying, or otherwise harming the 
National Wildlife Refuge System. While not big money, this 
could be hundreds of thousands to $5 or $6 million a year. 
These damages, under current authorizations, go right onto our 
maintenance backlog, so that is part of the President's request 
for appropriations.
    The Chairman. Thank you. Let me cut myself off. I 
appreciate the Committee being here, and being here perhaps a 
little bit longer than we anticipated. I appreciate the 
witnesses coming here and testifying at the same time.
    I think, as we go through this process, we will identify in 
the coming weeks other ways in which we can come up with a 
permanent fund that can assist in the backlog. We will be 
creative in those type of efforts. Maybe there is some other 
revenue sources that need to be added or considered as we go 
through that.
    I realize the one thing I don't want to do, as has happened 
some times in the past, is the idea of helping to solve the 
problem of funding of our public lands. It is just keeping 
people off of the public lands, and therefore you don't have to 
fund them. There are some people that actually look at that as 
a proper policy. If people are not engaged in public lands, our 
park systems and the fish and wildlife refuges, if they are not 
visiting there, there is no reason to have them in the first 
place. So, that is the one thing we will never go back to, at 
least that approach to it.
    I would remind the witnesses, as well as the Committee, 
that there may be some further questions people have, as well 
as some statements. You have already said you would provide us 
with information later on. If there are other questions coming 
from this Committee, they will be sent to you in writing within 
3 business days. We would ask for your response at that 
particular time.
    With that, once again, our great appreciation for you being 
here. As we look forward, we said this is like a twofold 
process. Today, we are dealing with the problem. Next week, we 
start dealing with the solutions to those problems. We will be 
coming back to you again. Thank you for your participation, 
thank you for the testimony you have given. Anything else you 
wish to add to the record will be added to the record, as well.

    With that, the hearing is adjourned.

    [Whereupon, at 11:49 a.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

       Prepared Statement of the U.S. Department of the Interior
                              on behalf of
  Mr. P. Daniel Smith, Deputy Director, National Park Service and Mr. 
     Steve Guertin, Deputy Director, U.S. Fish and Wildlife Service
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, thank you for the opportunity to present the Department of 
the Interior's (Department) views on potential solutions to reducing 
the deferred maintenance backlog of the Department of the Interior. 
Representing the Department at today's hearing are P. Daniel Smith, 
Deputy Director of the National Park Service, and Steve Guertin, Deputy 
Director of the U.S. Fish and Wildlife Service.
    Since Secretary Zinke's confirmation, tackling the Department's 
deferred maintenance backlog has been one of his top priorities. The 
Department manages roughly 500 million acres of land and possesses an 
infrastructure asset portfolio valued at over $300 billion. Roads, 
bridges, trails, water systems, visitor centers, and student dorms--
even bathrooms, campgrounds, and drinking fountains--are all part of 
this critical, but often unnoticed, framework. After years of increased 
visitation and use, aging facilities and other vital structures are in 
urgent need of restoration.
    The Department has a total of about $16 billion worth of deferred 
maintenance. Of that amount, the National Park Service (NPS) has the 
largest share--$11.6 billion in 2017.
    Here are just a few examples of needed repairs in our Nation's 
national parks. Glacier National Park, one of the NPS' crown jewels, is 
home to the headwaters for streams that flow to the Pacific Ocean, the 
Gulf of Mexico and Hudson's Bay. This popular Montana park has more 
than $154 million in maintenance needs alone, including projects to 
repair bridges and culverts, roads, and employee housing.
    In California, Point Reyes National Seashore is home to majestic 
marine mammals and multi-generational beef and dairy ranches. The park 
has roughly $99 million in deferred maintenance, including single 
projects that include the historic Platform Bridge. This bridge, built 
in 1927, carried both people and automotive traffic, but due to the 
lack of ongoing necessary rehabilitation work, $1.6 million is needed 
for this project alone.
    Roads and other transportation assets account for $5.9 billion--
about half--of the NPS deferred maintenance backlog. The NPS maintains 
over 5,500 miles of paved roads, including historic routes such as the 
Blue Ridge Parkway, Natchez Trace Parkway, and Skyline Drive in 
Shenandoah National Park. Congress provides for a significant portion 
of transportation maintenance and repair through the Department of 
Transportation, primarily through the Federal Lands Transportation 
Program, which includes $292 million for NPS projects in FY 2019 alone. 
Additional funding for maintaining transportation assets is provided 
through NPS operations and construction appropriations.
    Just like some of its other more famous parkway sites, Colonial 
Parkway in Tidewater, Virginia was designed in the 1930s to provide a 
scenic, pleasurable driving experience between historic Jamestown, 
Yorktown, and Williamsburg. Today, the parkway is an important commuter 
route with the busiest sections carrying between 1.9 million and 2.2 
million vehicles per year. In addition, large tour buses use the route, 
adding weight and capacity that was not envisioned when it was 
designed. The total cost to repair the parkway is $270 million.
    Known for its scenic views and vibrant autumns, Great Smoky 
Mountains National Park welcomes millions of visitors each year. The 
park has $215 million in deferred maintenance needs. A key destination 
for park visitors, Sugarlands Visitor Center houses exhibits on 
wildlife, geology, and history, and is in need of total reconstruction 
that will cost roughly $25 million. The park is also well known for its 
historic buildings--from churches, barns, and smokehouses to a working 
grist mill--but many of them need rehabilitation to ensure they remain 
safe and welcoming destinations.
    Appropriated funds are currently the primary source of funding for 
deferred maintenance. However, we know that we cannot rely on 
appropriated dollars alone to address this problem, so we are looking 
at multiple avenues for making additional funds available through other 
means.
    For example, the Department's Fiscal Year 2019 budget proposes to 
permanently reauthorize the Federal Lands Recreation Enhancement Act 
(FLREA), which expires in September 2019. As a precaution, the budget 
also proposes appropriations language to provide a 2-year extension of 
FLREA through September 2021. The revenues collected from these 
recreation fees across several DOI bureaus--$318.8 million in 2017--are 
an important source of funding for land management operations, 
maintenance, and improvements to recreation facilities on public lands.
    Most importantly, we are looking at a new proposal to raise funds 
for this purpose by dedicating a portion of Federal energy revenues to 
address this problem. The proposed Public Lands Infrastructure Fund 
(Fund) outlined in the President's 2019 budget would address repairs 
and improvement in national parks, national wildlife refuges, and 
Bureau of Indian Education (BIE) schools. The Administration's proposal 
would set aside for infrastructure needs a portion of unallocated 
Federal energy revenues exceeding FY 2018 Budget baseline projections. 
These receipts would be derived from Federal energy revenues, including 
mineral leasing, e.g., oil, gas and coal, under the Mineral Leasing Act 
and Outer Continental Shelf Lands Act, as well as solar, wind, and 
geothermal development. While the budget estimate assumes this 
initiative would result in $6.8 billion in expenditures from the Fund 
over 10 years, the proposal allows for as much as $18 billion to be 
available through this legislation. The Department would distribute 
funds using established criteria, such as consideration of asset 
condition and mission criticality, and would measure and report on 
agency-wide progress. This bold investment would significantly improve 
the Nation's most visible and visited public facilities that support a 
multi-billion dollar outdoor recreation economy.
    While the NPS is the focus of this proposal, the Fund would also be 
used for deferred maintenance at Bureau of Indian Education (BIE) 
schools and national wildlife refuges. The Assistant Secretary for 
Indian Affairs and its bureaus have maintenance responsibilities for 
over 169 elementary and secondary schools and 14 dormitories which 
service nearly 47,000 students. The estimated deferred maintenance 
backlog for BIE schools is $634 million, which does not include the 
cost for school replacement projects. Major projects to address 
deferred maintenance are reviewed by the Indian Affairs Construction 
Investment Review Board and are prioritized as part of the Five-Year 
Deferred Maintenance and Construction plan.
    Schools that could potentially benefit from these investments would 
include the BIE operated Cheyenne Eagle Butte School, which is one of 
the largest schools serving Indian tribes in South Dakota. The school 
promotes academic achievement along with traditional Lakota cultural, 
language, and extracurricular activities in two of the poorest counties 
in the state and Nation. Cheyenne Eagle Butte is in urgent need of a 
variety of repairs, especially structural. For example, classrooms have 
been closed due to the presence of dangerous mold, numerous roof leaks 
allow water to seep through three floors of classrooms, and repetitive 
heating system failures have caused 2 weeks of lost instruction during 
the current academic year. Kindergarten students alone have been 
displaced from their regular classrooms for 3 years.
    Deferred maintenance issues are not unique to Cheyenne Eagle Butte 
School. As reported in a 2016 Government Accountability Office (GAO) 
report, the Department's ability to adequately address maintenance 
issues have been inhibited, even for those schools which pose great 
risk to the health and safety of students. Highlighted in the same GAO 
report is a frightening example where 7 of a school's 11 boilers failed 
inspection due to natural gas leaks and elevated carbon monoxide 
levels. The boilers were in such bad condition that the school was 
evacuated for approximately 2 weeks to conduct emergency repairs. 
Overall, the Department, the Bureau of Indian Affairs, and the BIE are 
working closely to address outstanding GAO recommendations and improve 
operations and service delivery in BIE-funded schools.
    The Fish and Wildlife Service (FWS) manages 566 national wildlife 
refuges and 38 wetland management areas and operates national fish 
hatcheries, fish technology centers and fish health centers. FWS is 
responsible for over $46 billion in constructed real property assets 
that include over 25,000 structures (e.g., buildings and water 
management structures) as well as nearly 14,000 roads, bridges, and 
dams. The estimated deferred maintenance backlog for FWS facilities is 
$1.4 billion.
    National wildlife refuges are a hub for outdoor recreation and 
conservation and are valued destinations for local residents as well as 
vacationers. Every state and territory has wildlife refuges, and over 
50 million people visit FWS refuges and hatcheries each year. They are 
places where families go on a weekend day to spend quality time 
outdoors, through activities such as hunting, fishing and birding. FWS 
lands generate over $2 billion for local economies and support tens of 
thousands of private-sector jobs. Examples of refuges that could 
benefit from the Fund include Big Oaks refuge in Indiana and Wallkill 
River refuge in New York and New Jersey. Big Oaks is home to more than 
200 species of birds and 46 species of mammals, and the refuge has been 
designated as a ``Globally Important Bird Area'' because of its value 
to migratory birds. However, public access to Big Oaks is impaired 
because a deteriorated, unsafe bridge with trees growing through it on 
the refuge has been closed since 2001. Wallkill River refuge has many 
grassland birds, migrating waterfowl, wintering raptors, and endangered 
species. Public access to this refuge is also significantly reduced 
because its Papakating Valley Rail Trail has been closed since 2010 due 
to extensive, dangerous degradation. Rehabilitating it will expand 9.5 
miles of former railroad beds into multi-purpose public trails.
    Another way Congress can help reduce the FWS' maintenance backlog--
in addition to enacting the proposed Fund--is to enact the 
Administration's 2019 Budget legislative proposal to provide FWS with 
authority to seek compensation from responsible parties who injure or 
destroy national wildlife refuges or other FWS resources. This new 
authority would be similar to that of the NPS and the National Oceanic 
and Atmospheric Administration. Under current law, when FWS resources 
are injured or destroyed, the costs of repair and restoration must be 
addressed through appropriations and are added to the FWS' maintenance 
backlog. These damages are not uncommon. Each year vandalism, 
trespassing, and other violations damage FWS assets. One example is a 
case of illegally created roads through Sequoyah refuge, Oklahoma, 
causing over $175,000 in estimated damages; another is a trespass and 
illegal excavation of a pipeline at San Bernard refuge, Texas, with 
estimated response and repair costs of $7.5 million.
    As Secretary Zinke said when announcing the 2019 budget, 
``President Trump is absolutely right to call for a robust 
infrastructure plan that rebuilds our national parks, refuges, and 
Indian schools, and I look forward to helping him deliver on that 
historic mission. Our parks and refuges are being loved to death, but 
the real heartbreak is the condition of the schools in Indian Country. 
We can and must do better for these young scholars. This is not a 
Republican or Democrat issue, this is an American issue, and the 
President and I are ready to work with absolutely anyone in Congress 
who is willing to get the work done.'' Whether it is our national 
parks, national wildlife refuges, or BIE schools, we have a 
responsibility to be good stewards of the land and resources we manage. 
The Department's needs span all the way from Massachusetts to Alaska to 
Guam. We greatly appreciate the effort of this Committee and your 
colleagues in Congress who have sought to craft real solutions to our 
maintenance backlog. We look forward to continuing those efforts by 
working with each of you in a collaborative manner that preserves and 
maintains our national treasures.
    Mr. Chairman, this concludes the Department's statement. We would 
be pleased to answer any questions you or other members of the 
Committee may have.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    --The Pew Charitable Trusts, Statement for the Record.

    --List of national and local organizations, cities/
            counties, and elected officials who support 
            addressing the multi-billion dollar backlog 
            plaguing our National Park System.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
